<html>
<title> - EXAMINING CYBERSECURITY RESPONSIBILITIES AT HHS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


           EXAMINING CYBERSECURITY RESPONSIBILITIES AT HHS

=======================================================================

                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON HEALTH

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 25, 2016

                               __________

                           Serial No. 114-150
                           
                           
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT                           


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov
                        
                        
                               __________
                                

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
21-352 PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="482f3827082b3d3b3c202d2438662b272566">[email&#160;protected]</a> 





                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman

JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Chairman Emeritus                    Ranking Member
ED WHITFIELD, Kentucky               BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
JOSEPH R. PITTS, Pennsylvania        ELIOT L. ENGEL, New York
GREG WALDEN, Oregon                  GENE GREEN, Texas
TIM MURPHY, Pennsylvania             DIANA DeGETTE, Colorado
MICHAEL C. BURGESS, Texas            LOIS CAPPS, California
MARSHA BLACKBURN, Tennessee          MICHAEL F. DOYLE, Pennsylvania
  Vice Chairman                      JANICE D. SCHAKOWSKY, Illinois
STEVE SCALISE, Louisiana             G.K. BUTTERFIELD, North Carolina
ROBERT E. LATTA, Ohio                DORIS O. MATSUI, California
CATHY McMORRIS RODGERS, Washington   KATHY CASTOR, Florida
GREGG HARPER, Mississippi            JOHN P. SARBANES, Maryland
LEONARD LANCE, New Jersey            JERRY McNERNEY, California
BRETT GUTHRIE, Kentucky              PETER WELCH, Vermont
PETE OLSON, Texas                    BEN RAY LUJAN, New Mexico
DAVID B. McKINLEY, West Virginia     PAUL TONKO, New York
MIKE POMPEO, Kansas                  JOHN A. YARMUTH, Kentucky
ADAM KINZINGER, Illinois             YVETTE D. CLARKE, New York
H. MORGAN GRIFFITH, Virginia         DAVID LOEBSACK, Iowa
GUS M. BILIRAKIS, Florida            KURT SCHRADER, Oregon
BILL JOHNSON, Ohio                   JOSEPH P. KENNEDY, III, 
BILLY LONG, Missouri                 Massachusetts
RENEE L. ELLMERS, North Carolina     TONY CARDENAS, California7
LARRY BUCSHON, Indiana
BILL FLORES, Texas
SUSAN W. BROOKS, Indiana
MARKWAYNE MULLIN, Oklahoma
RICHARD HUDSON, North Carolina
CHRIS COLLINS, New York
KEVIN CRAMER, North Dakota

                         Subcommittee on Health

                     JOSEPH R. PITTS, Pennsylvania
                                 Chairman
BRETT GUTHRIE, Kentucky              GENE GREEN, Texas
  Vice Chairman                        Ranking Member
ED WHITFIELD, Kentucky               ELIOT L. ENGEL, New York
JOHN SHIMKUS, Illinois               LOIS CAPPS, California
TIM MURPHY, Pennsylvania             JANICE D. SCHAKOWSKY, Illinois
MICHAEL C. BURGESS, Texas            G.K. BUTTERFIELD, North Carolina
MARSHA BLACKBURN, Tennessee          KATHY CASTOR, Florida
CATHY McMORRIS RODGERS, Washington   JOHN P. SARBANES, Maryland
LEONARD LANCE, New Jersey            DORIS O. MATSUI, California
H. MORGAN GRIFFITH, Virginia         BEN RAY LUJAN, New Mexico
GUS M. BILIRAKIS, Florida            KURT SCHRADER, Oregon
BILLY LONG, Missouri                 JOSEPH P. KENNEDY, III, 
RENEE L. ELLMERS, North Carolina         Massachusetts
LARRY BUCSHON, Indiana               TONY CARDENAS, California
SUSAN W. BROOKS, Indiana             FRANK PALLONE, Jr., New Jersey (ex 
CHRIS COLLINS, New York                  officio)
JOE BARTON, Texas
FRED UPTON, Michigan (ex officio)

                                  (ii)
                             
                             
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Joseph R. Pitts, a Representative in Congress from the 
  Commonwealth of Pennsylvania, opening statement................     1
    Prepared statement...........................................     2
Hon. Gene Green, a Representative in Congress from the State of 
  Texas, opening statement.......................................     4
    Prepared statement...........................................     5
Hon. Michael C. Burgess, a Representative in Congress from the 
  State of Texas, opening statement..............................     6
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     7
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, prepared statement...................................    73

                               Witnesses

Joshua Corman, Director, Cyber Statecraft Initiative, Atlantic 
  Council........................................................     9
    Prepared statement...........................................    12
    Answers to submitted questions...............................    84
Samantha Burch, Senior Director, Congressional Affairs, 
  Healthcare Information and Management Systems Society..........    19
    Prepared statement...........................................    21
    Answers to submitted questions...............................    88
Marc Probst, Vice President and Chief Information Officer, 
  Intermountain Healthcare, on Behalf of the College of 
  Healthcare Information Management Executives...................    28
    Prepared statement...........................................    30
    Answers to submitted questions...............................    94
Michael H. (Mac) McMillan, Chairman and Chief Executive Officer, 
  CynergisTek, Inc...............................................    39
    Prepared statement...........................................    42
    Answers to submitted questions...............................   100

                           Submitted Material

H.R. 5068, the HHS Data Protection Act, submitted by Mr. Pitts...    74
Article of May 25, 2016, ``Cyber ransom attacks panic hospitals, 
  alarm Congress,'' by Arthur Allen, Politico, submitted by Mrs. 
  Blackburn......................................................    78

 
            EXAMINING CYBERSECURITY RESPONSIBILITIES AT HHS

                              ----------                              


                        WEDNESDAY, MAY 25, 2016

                  House of Representatives,
                            Subcommittee on Health,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 2123, Rayburn House Office Building, Hon. Joseph R. Pitts 
(chairman of the subcommittee) presiding.
    Members present: Representatives Pitts, Guthrie, Shimkus, 
Burgess, Blackburn, McMorris Rodgers, Lance, Griffith, 
Bilirakis, Long, Ellmers, Bucshon, Brooks, Collins, Green, 
Engel, Schakowsky, Castor, Matsui, Schrader, Kennedy, and 
Pallone (ex officio).
    Staff present: Rebecca Card, Assistant Press Secretary; 
Paul Edattel, Chief Counsel, Health; Charles Ingebretson, Chief 
Counsel, Oversight and Investigations; James Paluskiewicz, 
Professional Staff Member, Health; Graham Pittman, Legislative 
Clerk, Health; Jennifer Sherman, Press Secretary; Alan 
Slobodin, Chief Investigative Counsel, Oversight and 
Investigations; Heidi Stirrup, Policy Coordinator, Health; 
Sophie Trainor, Policy Advisor, Health; Josh Trent, Deputy 
Chief Health Counsel; Jessica Wilkerson, Professional Staff 
Member, Oversight and Investigations; Kyle Fischer, Democratic 
Health Fellow; Timothy Robinson, Democratic Chief Counsel; 
Samantha Satchell, Democratic Policy Analyst; Andrew Souvall, 
Democratic Director of Communications, Outreach, and Member 
Services; and Arielle Woronoff, Democratic Health Counsel.
    Mr. Pitts. The subcommittee will come to order.
    The Chair recognizes himself for an opening statement.

OPENING STATEMENT OF HON. JOSEPH R. PITTS, A REPRESENTATIVE IN 
         CONGRESS FROM THE COMMONWEALTH OF PENNSYLVANIA

    In today's digital connected world cybersecurity is one of 
the most important, most urgent problems that we as a society 
face. Indeed, a great deal of sensitive information has been 
entrusted to the Federal Government. And as the recent breach 
at the Office of Personnel Management showed, we are not always 
the most sophisticated at protecting that information. We, 
therefore, must always be on the lookout for opportunities to 
improve and adapt to changing cybersecurity threats and 
realities.
    As a result of an investigation conducted by the Energy and 
Commerce Subcommittee on Oversight and Investigations to 
examine information security at the U.S. Food and Drug 
Administration, it was determined that serious weaknesses 
existed in the overall information security programs at the 
U.S. Department of Health and Human Services, HHS. It seems a 
major part of the problem is the organizational structure in 
place at HHS that puts information security second to 
information operations. This stems from the fact that right now 
the top official responsible for information operations at HHS 
is the Chief Information Officer, or CIO, and the official 
responsible for information security, the Chief Information 
Security Officer, or CISO, reports to him. In other words, the 
official in charge of building complex information technology 
systems is also the official in charge of ultimately declaring 
those systems secure. This is an obvious conflict of interest.
    Today's hearing will take a closer look at bipartisan 
legislation designed to address these organizational issues. 
H.R. 5068, recently introduced by our Energy and Commerce 
Committee colleagues, Representatives Long and Matsui, is known 
as the HHS Data Protection Act. This bipartisan bill elevates 
and empowers the current HHS CISO with the creation of the 
Office of the Chief Information Security Officer within the 
Department of Health and Human Services, which will be an 
organizational peer to the current Office of the Chief 
Information Officer.
    This type of structure is not novel or untested. A branch 
of the Department of Defense has already implemented a similar 
structure. Many industry experts such as PricewaterhouseCoopers 
now recommend that CIOs and CISOs be separated, quote, ``to 
better allow for internal checks and balances,'' end quote.
    We are very lucky today to have expert witnesses who can 
talk to us about not only the bill itself, but help us 
understand more about the CIO/CISO relationship and why the 
structure currently in place at HHS could benefit from an 
update. In particular, I would like to highlight that one of 
our witnesses, Mr. Mac McMillan, experienced the very structure 
that H.R. 5068 seeks to create at HHS during his time working 
for the Department of Defense and will be able to provide 
valuable perspective on how HHS might implement this reform.
    Today's hearing provides members an important opportunity 
to examine cybersecurity responsibilities at HHS and discuss a 
bill that will help raise the visibility and priority of 
information security across the Department.
    [The prepared statement of Mr. Pitts follows:]

               Prepared statement of Hon. Joseph R. Pitts

    In today's digital, connected world, cybersecurity is one 
of the most important, most urgent problems that we as a 
society face. Indeed, a great deal of sensitive information has 
been entrusted to the Federal Government, and as the recent 
breach at the Office of Personnel Management showed, we are not 
always the most sophisticated at protecting that information. 
We therefore must always be on the lookogut for opportunities 
to improve and adapt to changing cybersecurity threats and 
realities.
    As a result of an investigation conducted by the Energy and 
Commerce Subcommittee on Oversight and Investigations to 
examine information security at the U.S. Food and Drug 
Administration, it was determined that serious weaknesses 
existed in the overall information security programs at the 
U.S. Department of Health and Human Services (HHS). It seems a 
major part of the problem is the organizational structure in 
place at HHS that puts information security second to 
information operations.
    This stems from the fact that, right now, the top official 
responsible for information operations at HHS is the Chief 
Information Officer, or CIO, and the official responsible for 
information security, the Chief Information Security Officer, 
or CISO reports to him. In other words, the official in charge 
of building complex information technology systems is also the 
official in charge of ultimately declaring those sySSstems 
secure. This is an obvious conflict of interest.
    Today's hearing will take a closer look at bipartisan 
legislation designed to address these organizational issues. 
H.R. 5068, recently introduced by our Energy and Commerce 
Committee colleagues, Reps. Long and Matsui, is known as the 
HHS Data Protection Act. This bipartisan bill elevates and 
empowers the current HHS CISO with the creation of the Office 
of the Chief Information Security Officer within the Department 
of Health and Human Services, which will be an organizational 
peer to the current Office of the Chief Information Officer.
    This type of structure is not novel or untested: a branch 
of the Department of Defense has already implemented a similar 
structure, and many industry experts such as 
PricewaterhouseCoopers now recommend that CIOs and CISOs be 
separated ``to better allow for internal checks and balances.''
    We are very lucky today to have expert witnesses who can 
talk to us about not only the bill itself, but help us 
understand more about the CIO-CISO relationship and why the 
structure currently in place at HHS could benefit from an 
update. In particular, I'd like to highlight that one of our 
witnesses, Mr. Mac McMillan, experienced the very structure 
that H.R. 5068 seeks to create at HHS during his time working 
for the Department of Defense, and will be able to provide 
valuable perspective on how HHS might implement this reform.
    Today's hearing provides Members an important opportunity 
to examine cybersecurity responsibilities at HHS, and to 
discuss a bill that will help raise the visibility and priority 
of information security across the Department.

    [H.R. 5068 appears at the conclusion of the hearing.]
    Mr. Pitts. I now yield the remainder of my time to Mr. Long 
from Missouri.
    Mr. Long. Thank you, Mr. Chairman, for holding this 
hearing, and thank you to my colleague, Ms. Matsui, for her 
fine work and cooperation in working with me on this important 
issue.
    Today we live in an age of the internet. While that has 
spurred faster and more efficient communication between the 
American people and their Federal Government, it has also meant 
having to confront the threat of cybercriminals. Last year this 
committee released a study with alarming results which included 
proof that five HHS operating divisions had been breached using 
very unsophisticated means, and nonpublic HHS Office of the 
Inspector General reports detailing 7 years of deficiency 
across HHS' information security programs.
    It is impossible to completely eradicate the threat of 
cyberattacks, but the American people deserve to know that 
their sensitive information is being safeguarded with the 
utmost security.
    Mr. Chairman, ensuring the safety of Americans' data is a 
vital necessity for Government agencies to operate efficiently. 
The legislation we are examining today, which I introduced 
along with Ms. Matsui, would restructure HHS' positions so that 
prioritization will be given to meeting the critical data 
security needs expressed by their Chief Information Security 
Officer.
    With that in mind, I look forward to the testimony of our 
witnesses today.
    Mr. Chairman, I yield back.
    Mr. Pitts. The Chair thanks the gentleman.
    Now I recognize the ranking member, Mr. Green, 5 minutes 
for an opening statement.

   OPENING STATEMENT OF HON. GENE GREEN, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Green. Thank you, Mr. Chairman, and welcome to our 
panel to our subcommittee today.
    Cybersecurity represents a current and growing threat to 
our economy as our everyday lives become more digitized. From 
the 2014 breach at the Office of Personnel Management and the 
high-profile private sector breaches of companies like Target, 
JPMorgan Chase, Anthem, we are too frequently reminded of how 
vulnerable we are to security incidents involving personally 
identifiable information.
    An unauthorized breach of personal information is 
particularly concerning when it is sensitive information about 
our health. As with the private sector, information and 
technology security management remains a challenge for all 
Federal agencies.
    The principal law concerning the Federal Government's 
information security program is the Federal Information 
Security Management Act, FISMA. The 2002 law requires agencies 
to provide information security protections for IT systems and 
information collected or maintained by agencies, quote, 
``commensurate with the risk and magnitude of harm that could 
result from unauthorized access or disruption''.
    Recognizing the importance of cybersecurity and 
vulnerabilities of HHS, Congress enacted the Cybersecurity 
Information Sharing Act as part of the Consolidated 
Appropriations Act in December 2015. CISA requires the 
Secretary of Health and Human Services to review and report a 
plan for addressing cyber threats and designate a clear 
official who is responsible for leading and coordinating 
efforts within HHS and the healthcare industry.
    That law has established the Health Care Industry 
Cybersecurity Task Force. Members were recently appointed to 
the task force and will deliver the final report by March of 
2017. We should let HHS carry out the provisions outlined in 
CISA, and I am a bit surprised by my colleague's decision to 
have a hearing today on H.R. 5068, the HHS Data Protection Act, 
the legislation that was recently introduced by Representatives 
Billy Long and Doris Matsui. And I thank them for their 
leadership on this issue.
    Unfortunately, with the last-minute timing of the hearing, 
it is impossible for the administration to testify. Having HHS' 
perspective would have greatly enhanced our evaluation of the 
current cybersecurity improvement efforts and this legislation, 
since HHS will be carrying out the organizational reform 
proposed in H.R. 5068.
    Again, cybersecurity remains an issue, and today is an 
opportunity to further the conversation. I look forward to 
hearing from our witnesses about what the private sector is 
doing to enhance cybersecurity, including both defensive and 
offensive capabilities.
    [The prepared statement of Mr. Green follows:]

                 Prepared statement of Hon. Gene Green

    Cybersecurity represents a current and growing threat as 
our economy and everyday lives become more digitized.
    From the 2014 breach of the Office of Personnel Management 
and high-profile private sector breaches of companies like 
Target, JP Morgan Chase, and Anthem, we are too frequently 
reminded of how vulnerable we are to security incidents 
involving personally identifiable information.
    An unauthorized breach of personal information is 
particularly concerning when it is sensitive information about 
our health.
    As with the private sector, information technology security 
management remains a challenge for all Federal agencies.
    The principle law concerning the Federal Government's 
information security program is the Federal Information 
Security Management Act (FISMA)
    The 2002 law requires agencies to provide information 
security protections for IT systems and information collected 
or maintained by agencies ``consummate with the risk and 
magnitude of harm'' that could result from unauthorized access 
or disruption.
    Recognizing the importance of cybersecurity and 
vulnerabilities of HHS, Congress enacted the Cybersecurity 
Information Sharing Act (CISA) as part of the Consolidated 
Appropriations Act in December 2015.
    CISA required the Secretary of HHS to review and report a 
plan for addressing cybersecurity threats and designate a clear 
official who is responsible for leading and coordinating 
efforts within HHS and the health care industry.
    The law also established the Health Care Industry 
Cybersecurity Task Force.
    Members were recently appointed to the task force and will 
deliver the finalized report by March of 2017.
    We should let HHS carry out the provisions outlined in 
CISA.
    I am a bit surprised by my colleagues' decision to have a 
hearing today on H.R. 5068, the HHS Data Protection Act.
    This legislation was recently introduced by Representatives 
Billy Long and Doris Matsui, and I thank them for their 
leadership on this issue.
    Unfortunately, the last-minute timing of this hearing made 
it impossible for the administration to testify.
    Having HHS' perspective would have greatly enhanced our 
evaluation of current cybersecurity improvement efforts and of 
the legislation, since HHS would be the carrying out the 
organizational reform proposed in H.R. 5068.
    Again, cybersecurity remains an issue, and today is an 
opportunity to further the conversation.
    I look forward to hearing from our witnesses about what the 
private sector is doing to enhance
    Thank you, and I yield 2 minutes to my colleague from 
California, Congresswoman Doris Matsui.

    Mr. Green. I would like to thank you, and I yield the 
remaining of my time to my colleague from California, 
Congresswoman Doris Matsui.
    Ms. Matsui. Thank you, Mr. Green, for your opening, and, 
Mr. Chairman, for holding this important hearing.
    The intersection between technology and our health is 
impacting nearly every aspect of our daily lives. As we move 
toward a more connected system of care, we need to make sure 
our security practices are nimble and forward-thinking to meet 
this new, exciting health IT landscape.
    Making technological investments in our cyberdefense 
systems is absolutely critical, but it is also just as 
important that our organizational structures are set up for 
success. The HHS Data Protection Act that I introduced with my 
good friend Billy Long would elevate the Office of Chief 
Information Security Officer within HHS.
    The privacy of our health data is of critical importance, 
and this legislation would establish HHS as a model and leader 
across the Federal Government. It builds on the Obama 
administration's Cybersecurity National Action Plan, which 
created the first ever Federal Chief Information Security 
Officer, a dedicated senior official in the administration 
focused exclusively on coordinating cybersecurity operations 
across the entire Federal domain.
    We are already seeing the shift happen in the private 
sector, and I look forward to hearing more about this from the 
witnesses today.
    We must also include the important perspective of HHS as 
the committee continues our consideration of this legislation. 
A securely connected healthcare ecosystem is better for 
everyone. This health IT transformation requires a solid 
regulatory and legislative foundation to work from.
    I will continue to work with my colleagues in Congress on 
forward-thinking solutions to combat cyber threats across both 
the public and the private sector, and I do appreciate the 
witnesses being here today. I look forward to your testimonies.
    Thank you, Mr. Chairman. I yield back.
    Mr. Pitts. The Chair thanks the gentlelady, and now 
recognizes the gentleman, Dr. Burgess, 5 minutes for an opening 
statement.

OPENING STATEMENT OF HON. MICHAEL C. BURGESS, A REPRESENTATIVE 
              IN CONGRESS FROM THE STATE OF TEXAS

    Mr. Burgess. Thank you, Chairman Pitts, and thank you for 
holding this hearing.
    There are certainly more and more reasons every day to be 
concerned about our health data security. Digitization of 
health information has accelerated in all sectors of medicine, 
and electronic data is taking the place of paper files 
everywhere from research labs to hospitals, to public health 
departments.
    I am fully committed to advancing progress towards an 
interoperable universe of health information because I am 
confident it will offer benefits for medical information and 
for healthcare delivery.
    However, this progress has brought with it threats to 
patient privacy, threats to patient security, and even threats 
to safety, unlike anything we have ever faced before. We have 
seen hospitals that rely on electronic health records be held 
ransom by hackers, demanding a fee payable in bitcoins, before 
they can regain access to patient records.
    This is no small victimless crime. This could be a matter 
of life and death, particularly when you consider the care of a 
critical-needs patient or a critical-care patient in an 
intensive care setting. This is something that is being 
perpetrated by sophisticated criminals who I don't think 
understand the seriousness of the illness of the patients that 
they are dealing with.
    We have learned that there are fundamental weaknesses in 
the foundation of data security at every major division of HHS, 
and that hardly inspires confidence. Although the breaches and 
vulnerabilities at HHS have not been as serious in nature as 
ransomware attacks in the private sector, there is no reason in 
the world to just sit back and wait for that disaster to happen 
and, then, be tasked with examining the smoking ruins.
    Data held by the divisions at Health and Human Services 
seriously affect every single American. Just a few ``what 
ifs'':
    What if our enemies could hack into the CDC's systems? What 
is to stop them from using our own biodefense plans against us?
    If the FDA's data on clinical trials is vulnerable to 
hackers, how can companies be confident that their proprietary 
trade secrets and intellectual property will not be stolen?
    There is no limit to the cavalcade of harsh headlines if we 
don't get serious about data security at the Department of 
Health and Human Services before it is too late. Mr. Long and 
Ms. Matsui have taken an important first step in making data 
security a priority, and I am certainly grateful that we have 
our witnesses here today. I look forward to hearing from them.
    And I will yield to the vice chair of the full committee, 
Ms. Blackburn.
    Mrs. Blackburn. Thank you, Mr. Chairman.
    And we appreciate our witnesses being here.
    This is something that I think many of us recognize is 
truly a problem. In 2003, when we did the Medicare 
Modernization Act, I recommended that we put in process an 
orderly process and incentives for the healthcare provider 
system to move to electronic records. Well, the hospitals did 
not want that. So now, what you have is kind of a mixed bag of 
different systems and people that are in different places along 
this transition to electronic records. What you also see--and 
Politico has a great article in today.
    Mr. Chairman, we should put this article in the record 
because it points out why we need this legislation.
    Mr. Pitts. Without objection, so ordered.
    Mrs. Blackburn. Thank you.
    [The information appears at the conclusion of the hearing.]
    Mrs. Blackburn. As Chairman Burgess said, interoperability 
is an issue, data security protections. We still have not 
passed data security or privacy legislation, breach 
notification, things of that nature, out of this committee, and 
we should do so.
    And also, going back and revisiting HIPAA, which would help 
us to put in place some protections. We have seen, the hospital 
industry that is in my district, they have seen some hacks, 
millions of records, patient records, that have been taken and 
have been exposed. This is the type of crime that happens to 
you. You do not know that it is coming. You are not aware many 
times until months after it has occurred. And that entire time, 
you have patients that are vulnerable.
    So, we thank you for helping turn the attention to 
cybersecurity, and I yield back the balance of my time.
    Mr. Pitts. The Chair thanks the gentlelady.
    I now recognize the ranking member of the full committee, 
Mr. Pallone, 5 minutes for an opening statement.

OPENING STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Mr. Chairman.
    I appreciate today's hearing topic on cybersecurity and 
examining the cybersecurity responsibilities within HHS. I 
think we would all agree that cybersecurity is a critical issue 
facing us in our ever-evolving 21st century world. Everything 
we do on a daily basis is more and more connected through the 
internet. And when it comes to our health information, just 
like our personal information, we must find ways to improve our 
systems, so that they are secure and protected.
    I have said before that this committee has a long history 
on cybersecurity issues. We also recently held a hearing in the 
Oversight and Investigations Subcommittee in which we heard 
firsthand how difficult and complicated this problem is.
    Unfortunately, our ability to protect against cyberattacks 
while improving still appears to lack what is needed to prevent 
these intrusions. And what we have discovered is that, while 
the Federal Government has had their share of breaches, the 
private sector is also battling these attacks.
    Today we are going to examine one solution to this problem, 
how an agency should be organized to encourage efficiencies and 
best practices within the Federal Government. This legislation, 
introduced by Representatives Matsui and Long, would move the 
Chief Information Security Officer, CISO, to the same level as 
the Chief Information Officer, CIO. Currently, the CISO is 
located within the same office as the CIO and reports to the 
CIO.
    I look forward to hearing about what this can accomplish, 
but, also, if there are any shortfalls to such reorganization. 
For example, would moving the system out of the Office of the 
CIO create silos? Should information security considerations be 
integrated into the information technology planning process 
instead of in parallel, as this bill would suggest? Would this 
bill create inefficiencies by removing responsibility for the 
CIO to take into account cybersecurity? Are there major 
differences between HHS and the private sector that should be 
taken into account?
    So, let me just say that I am disappointed we couldn't 
ensure that HHS had an opportunity to be here today to express 
their own views. HHS should be able to testify to whether this 
organizational change makes sense from their perspective and 
whether it could potentially exacerbate the problem it is 
trying to solve. And this is why I wish the majority had not 
rushed this hearing.
    While this bill may, in fact, be a good approach and I 
appreciate the efforts of our committee colleagues, the timing 
of this hearing means that the committee, stakeholders, and HHS 
itself have not had a chance to fully vet the bill.
    Finally, Congress passed a bill at the end of last year 
that requires HHS to do a thorough cybersecurity report and 
plan, and I am concerned that we would move forward on these 
changes before we are able to hear the outcome of this report.
    We may never be able to completely eradicate the threat of 
cybersecurity, but we have to take comprehensive action, and I 
am glad to see this committee is exploring ways to do that.
    I yield back, Mr. Chairman.
    Mr. Pitts. The Chair thanks the gentleman.
    Although both sides tried to get a witness from HHS, they 
were unable to produce a witness today. But we will get their 
consultation, work with them, before moving on this issue.
    That completes the opening statements. As usual, the 
written opening statements of Members will be included in the 
record.
    We will now go to our panel. Thank you for your attendance 
today, and I will introduce you in the order of your 
presentation. Your written testimony will be made part of the 
record. You will each have 5 minutes to summarize your 
testimony.
    And in the order of your presentation, Mr. Joshua Corman, 
Director of Cyber Statecraft Initiative, Atlantic Council; Ms. 
Samantha Burch, Senior Director, Congressional Affairs, 
Healthcare Information and Management Systems Society North 
America; Mr. Marc Probst, Vice President and Chief Information 
Officer, Intermountain Healthcare, on behalf of the College of 
Healthcare Information Management Executives, and, finally, Mr. 
Mac McMillan, Chief Executive Officer, CynergisTek, Inc.
    Again, thank you for coming.
    Mr. Corman, you are recognized for 5 minutes for your 
summary.

    STATEMENTS OF JOSHUA CORMAN, DIRECTOR, CYBER STATECRAFT 
INITIATIVE, ATLANTIC COUNCIL; SAMANTHA BURCH, SENIOR DIRECTOR, 
 CONGRESSIONAL AFFAIRS, HEALTHCARE INFORMATION AND MANAGEMENT 
    SYSTEMS SOCIETY; MARC PROBST, VICE PRESIDENT AND CHIEF 
INFORMATION OFFICER, INTERMOUNTAIN HEALTHCARE, ON BEHALF OF THE 
 COLLEGE OF HEALTHCARE INFORMATION MANAGEMENT EXECUTIVES; AND 
    MICHAEL H. (MAC) McMILLAN, CHAIRMAN AND CHIEF EXECUTIVE 
                   OFFICER, CYNERGISTEK, INC.

                   STATEMENT OF JOSHUA CORMAN

    Mr. Corman. Chairman Pitts, Ranking Member Green, and 
distinguished members of the Subcommittee on Health, thank you 
for the opportunity to testify today.
    My name is Joshua Corman. I am the Director of the Cyber 
Statecraft Initiative at the Brent Scowcroft Center for 
International Security at the Atlantic Council, a nonpartisan 
international policy think tank.
    I am also a founder of a grassroots volunteer organization 
focused on cybersafety in the Internet of Things called I Am 
The Cavalry, and an adjunct faculty for the CISO Certificate 
Program at Carnegie Mellon University's Heinz College. And 
lastly of note is I am one of the delegates serving on the HHS 
Cybersecurity Task Force that came out of the Cybersecurity Act 
of 2015.
    Over the past 15 years, I have been a stanch advocate of 
the CISO and the emerging challenges that confront that role, 
and tried to focus on the vanguard of emerging issues, whether 
it be the rise of hacktivism, the rise of nation-state 
espionage, or the increase to cybersafety and cyberphysical 
systems threats that face medical devices, automobiles, and the 
like. It is an increasingly challenging role, and I work deeply 
with the Fortune 50 and the Fortune 100.
    I say all of this because I have had a front-row seat at 
the turbulent evolutions that confront this role of the Chief 
Information Security Officer and have seen the healthy and 
unhealthy adaptations that the profession has taken in the 
private sector and the public sector, often through business 
relationships or my students at Carnegie Mellon University.
    What I hope to do here is frame a few of the factors that 
contribute to a successful CISO and a CISO cybersecurity 
program; also, speak to some of the costs and benefits and 
tradeoffs of alternative reporting structures that have been 
tried in the private sector and elsewhere; also, to answer any 
questions as you consider your choices.
    A brief comment on the current state of cybersecurity which 
I think is becoming clearer and clearer to this body. Our 
dependence on connected technology is growing much faster than 
our ability to secure it, and now it is affecting public safety 
and human life. The breaches are getting bigger, as we have 
seen with Target and Ashley Madison. The breaches are affecting 
Federal agencies, as we have seen with OPM, the Pentagon, and 
now HHS. And the breaches are getting more dangerous, as we are 
seeing with power outages in the Ukraine or denial of patient 
care at Hollywood Presbyterian Hospital due to an accidental 
impact of ransomware.
    I am more deeply concerned, less about the ransomware 
itself with a financial-motivated adversary, but more concerned 
at what this has revealed to ideological adversaries who may 
wish to cause physical harm and a sustained denial of service 
to patient delivery. And for these reasons, it is important 
that we avail ourselves of the best practices that are emerging 
at the vanguard of how we organize cybersecurity programs.
    Some factors which I have noticed contribute to the success 
of a CISO, a CSO, or a cybersecurity program:
    No. 1, the individual qualifications of the CISO in 
question.
    No. 2, at topic today, the reporting structure to the CIO, 
CFO, general counsel, CEO, board of directors, or alternatives.
    No. 3, the relationship the CISO maintains, regardless of 
reporting structure, to key stakeholders throughout the 
organization.
    No. 4, CEO and board-level visibility and prioritization to 
be supported in the execution of the mission.
    No. 5 is the application of risk management principles 
versus minimum compliance standards, which you often hear a 
quote of, ``We can spend only on compliance mandatory spending 
and not one penny more,'' often truncating true risk management 
or defensive countermeasures that are required to fend off 
these modern adversaries.
    And lastly, ability for the CISO to both influence IT and 
business choices, not simply IT or CIO choices. So, the scope 
is expanding as well.
    In general, as an observation, there is a migration away 
from reporting to the CIO as an inherent conflict of interest 
for a bevy of reasons which I can get into during your Q&A. And 
with each of the alternative structures, you see better aspects 
of the program manifest. For example, a CIO is typically 
concerned about availability and uptime of IT as opposed to 
privacy or sensitive information or trade secrets.
    Moving simply to a general counsel, for example, typically 
expresses greater focus on risk management principles on 
harder-to-replace information like trade secrets, sensitive 
organizational data, intellectual property, and the like. 
Reporting to the CIO allows true tensions and natural conflicts 
which emerge to get top full visibility on how to resolve those 
differences. And reporting to the CFO often brings to bear very 
rigorous accounting and audit principles, as have been 
introduced by the rigor of things like Sarbanes-Oxley on the 
financial services sector.
    Lastly, for 10 seconds here, essentially, there is a 
tremendous value in experimentation, and I really applaud the 
spirit of this bill to try an alternative reporting structure 
in one agency and, if successful, it could be replicated across 
other agencies to rise to these growing challenges.
    I thank you for your time.
    [The prepared statement of Mr. Corman follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Pitts. The Chair thanks the gentleman.
    I now recognize Ms. Burch, 5 minutes for your summary.

                  STATEMENT OF SAMANTHA BURCH

    Ms. Burch. Chairman Pitts, Ranking Member Green, members of 
the subcommittee, thank you for the opportunity to testify 
today on behalf of the Healthcare Information and Management 
Systems Society in support of H.R. 5068, the HHS Data 
Protection Act.
    HIMSS is a global, cause-based, not-for-profit organization 
focused on better health through information technology. HIMSS 
North America encompasses more than 64,000 individuals plus 
hundreds of corporations and not-for-profit partner 
organizations that share this cause. Our organization has spent 
more than a decade working to support the healthcare sector in 
improving its cybersecurity posture through thought leadership, 
proactive policy development, surveys, toolkits, and other 
resources.
    Today's hearing begins a critical conversation that mirrors 
conversations occurring in healthcare organizations across the 
country regarding the most appropriate approach to governance 
to ensure effective data protection and incident response.
    Cybersecurity has been a growing area of focus for 
healthcare organizations in recent years. Highly publicized, 
large-scale breaches of patient and consumer information and 
other high-profile security incidents have resulted in the 
increased hiring of Chief Information Security Officers to 
serve as the lead executive responsible for safeguarding an 
organization's data and IT assets. Further, the trend towards 
elevating the CISO to be a peer of the CIO reflects the 
recognition that information security has evolved into risk 
management activity historically within the purview of other 
executives.
    This recognition requires a reporting structure that 
creates a direct channel to the CEO, CFO, general counsel, and 
board of directors to facilitate management of security risk in 
the context of business risk, operational, legal, financial, 
reputational.
    For healthcare providers, a significant security incident 
or breach may lead to a disruption in patient care, the primary 
business mission of the organization. As such, it is clear that 
healthcare organizations need a cybersecurity leader to manage 
as well as mitigate security risk.
    However, it is important to note that it is not simply the 
organizational change of the CISO which will dramatically 
improve the security posture of an organization. The right 
people, processes, and technology must also be in place.
    The August 2015 Report on Information Security at HHS 
raised several important points related to the impact of the 
current HHS CISO reporting structure and detailed the resulting 
internal security challenges faced by the Department. This 
report reflects the criticality of the discussion we are having 
today.
    Like the private sector, HHS needs programs in place that 
support the specific business missions of its various operating 
divisions such as CMS as the largest healthcare payer or NIH as 
the Government health research agency. Breaking down silos will 
better position the Department to move from an audit-driven 
approach to a proactive, ongoing business risk management 
approach to cybersecurity that encourages information-sharing 
within the Department.
    Additionally, we believe that external threat information-
sharing is essential for HHS with other Federal agencies such 
as DHS and FBI and, also, with private sector healthcare 
organizations. We see an important external-facing role for the 
Office of the CISO as well. I direct the subcommittee to my 
written statement for additional details on that point.
    Healthcare organizations have come a long way in building 
the IT capabilities to make the goals of 21st Century Cures a 
reality. Over the past 5 years, rates of adoption of advanced 
EHR capabilities have increased significantly. The health 
information now contained in these systems hold great 
lifesaving potential.
    These goals are particularly meaningful to me, as a 5-year 
survivor of a rare brain tumor, and to the HIMSS organization 
after our colleague tragically lost her 22-year-old son to 
cancer and other complications last week.
    We see clearly that it is trust that will enable these 
efforts to succeed, trust in the system that will house and 
control access to the patient's data and trust in the public/
private collaborative effort. The HHS CISO, appropriately 
positioned within the Department, will be uniquely qualified to 
lead this important mission.
    In closing, I would like to thank Congressman Long and 
Congresswoman Matsui for their leadership on this legislation 
and the subcommittee for prioritizing this issue. I look 
forward to your questions.
    [The prepared statement of Ms. Burch follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Pitts. The Chair thanks the gentlelady.
    Now I recognize Mr. Probst, 5 minutes for your summary.


                    STATEMENT OF MARC PROBST

    Mr. Probst. Thank you, Chairman Pitts, Ranking Member 
Green, and members of the subcommittee. It is an honor to be 
here today to testify on behalf of the College of Healthcare 
Information Management Executives, or CHIME, concerning the 
relationship of Chief Information Officer and Chief Information 
Security Officer at the Department of Health and Human 
Services.
    CHIME is an executive organization serving nearly 1900 CIOs 
and other health information technology leaders at hospitals, 
health systems, and clinics across the Nation. In addition to 
serving as chairman of the CHIME board of trustees, I am the 
CIO and President of Information Systems at Intermountain 
Healthcare in Salt Lake City, Utah. Intermountain is a 
nonprofit, integrated health system that operates 22 hospitals 
in Utah and Idaho and approximately 200 clinics as well as an 
insurance plan. Intermountain also has over 36,000 employees.
    Nationally, Intermountain is known for providing high-
quality care at sustainable costs. Essential to our ability to 
deliver high-value, coordinated patient care is the proper and 
effective use of health information technology. CHIME members 
take very seriously their responsibility to protect the 
security of patient data and devices networked to the systems 
they manage.
    We appreciate the committee's interest in health 
cybersecurity and the role that the Department of Health and 
Human Services plays in helping to combat cybercriminals. We 
completely agree that cybersecurity must be a priority for HHS, 
just as it is for the Nation's healthcare CIOs.
    While this hearing is largely focused on organizational and 
reporting structures for the CIO and CISO at HHS, CHIME 
believes that the subcommittee must also look closely at how 
the Department coordinates cybersecurity across its divisions. 
In the private sector, reporting structures vary based on how 
organizations define the role of CISO. At Intermountain 
Healthcare, where the CISO reports to me, the CIO, we have made 
cybersecurity and privacy a major priority and focus.
    As an example, I have instructed my team, as they 
prioritize their efforts each day, I would rather have our data 
center go completely dark, meaning a complete loss of all of 
our information systems, than to have a major breach of our 
data and systems. Losing our information systems would be 
horrible and highly disruptive, but our patients, members, 
employees, clinicians, and others have entrusted us with their 
most personal data, and we need to do all we can to protect it.
    Security is not an afterthought. Everyone across the 
organization needs to make it a priority. Even then, no system 
is perfectly secure.
    As I mentioned, at Intermountain the CISO reports directly 
to me, as CIO. In our organization, the CISO is focused on 
developing and overseeing the implementation of the technical 
strategy to achieve our security posture as well as managing 
our security team. Working across information systems/
operations ensures that the technical components and processes 
required for cybersecurity are in place and are managed. The 
interpretation of regulations, rules, corporate policy, 
procedure, and development of our strategy to achieve our 
security posture, what we need to secure and how to set 
priorities is the role of our Compliance and Privacy Office, 
which reports to the board of directors.
    While these responsibilities are organizationally separate, 
our management structure helps us achieve a high level of 
cooperation. My peer in Compliance and Privacy is aligned with 
me; the Chief Privacy Officer is aligned with the CISO. 
Together, we develop the plans and manage execution.
    We have architected a cooperative model for cybersecurity 
that ensures appropriate checks and balances, that facilitates 
high levels of cooperation in achieving a more secure 
environment. This works at Intermountain. The focus isn't on 
the CIO's reporting structure. Rather, what is important is 
that there is an appropriate focus and appropriate checks and 
balances on both security plan development and execution.
    A similar structure is employed at Penn State Hershey 
Medical Center, where the CISO reports to the CIO. According to 
the CIO, this partnership ensures tight integration and solid 
support for the cybersecurity program across the entire team.
    Where the CISO should report is highly dependent on how the 
various roles accountable for cybersecurity are defined by the 
organization. Consider some other examples from CHIME members.
    At a large children's hospital, the CISO reports to the 
Data Security Officer. They want to look at analytics. The CIO 
for a multi-State provider reports to the Chief Technology 
Officer, who, then, reports to the enterprise CIO. CHIME 
members at several smaller organizations across the Nation 
report that they have the dual role of CISO and CIO.
    There is no question that the committee's interest in this 
topic is timely and efforts in the healthcare sector to improve 
the industry's cyberhygiene must be met with similar efforts 
within HHS.
    On behalf of CHIME and my colleague healthcare CIOs, I 
sincerely thank the committee for allowing me to speak to the 
evolving role of the healthcare CIO, particularly as it relates 
to IT security. Thank you.
    [The prepared statement of Mr. Probst follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Pitts. The Chair thanks the gentleman and now 
recognizes Mr. McMillan, 5 minutes for your summary.

             STATEMENT OF MICHAEL H. (MAC) McMILLAN

    Mr. McMillan. Thank you, sir. Chairman Pitts, Vice Chairman 
Guthrie, Ranking Member Green, and members of the Health 
Subcommittee, thank you for this opportunity to testify today 
on this important initiative.
    I am Mac McMillan, CEO of CynergisTek, a firm that 
specializes in providing privacy and security services to the 
healthcare industry since its inception in 2004. I am pleased 
to be able to offer testimony in support of H.R. 5068, the HHS 
Data Protection Act. I believe my experiences as former head of 
security for the On-Site Inspection Agency and the Defense 
Threat Reduction Agency, as well as my experiences from the 
past 15 years providing security services to the healthcare 
industry after leaving Government, have provided me with some 
unique and valuable insights on this matter.
    I have served in information security roles of one type or 
another since 1982, when I first became an intelligence officer 
in the United States Marine Corps and was given responsibility 
for managing the battalion's classified information. In every 
role I have had since, the protection of information systems 
and data has been a core component of my responsibilities.
    I sincerely support the elevation of the Chief Information 
Security Officer role to a position equivalent to other senior 
leaders within the Department of Health and Human Services and, 
in particular, the Chief Information Officer. When these two 
positions have equal authority, are both focused on a common 
mission, and work collaboratively, the CIO and the CISO form a 
complementary and effective team to ensure the protection of 
information assets for an organization. When there is disparity 
in these relationships, there is opportunity for conflicts of 
interest to arise, stifled or abbreviated discussion of risk, 
and an imbalance of priorities.
    One of the most often questions I get asked by healthcare 
leaders today and boards is, where should the CISO report? 
Cybersecurity is far and away one of the most critical issues 
for our industry today, but, in particular, for healthcare, 
which has emerged as a popular target for cybercriminals, 
hacktivists, and state actors engaged in cybertheft, extortion, 
and high-stakes espionage.
    Since 2009 when the HITECH Act was passed and healthcare 
embarked on a wide-scale digitization of patient information, 
there has been an associated and steady increase in the number 
of cyber incidents in healthcare. The criminal community has 
perfected its ability to monetize stolen information and has 
created an elaborate dark-net marketplace for buying and 
selling hacking services, techniques, knowledge, tools, and the 
information itself.
    Healthcare is particularly lucrative to attack because, 
unlike other industries, it represents a rare opportunity to 
steal all forms of personal information, medical, personal 
information, financial information, all in a single attack.
    At the same time, the healthcare computing environment 
represents one of the most complex and difficult to secure 
today. Multiple initiatives that seek to improve healthcare, 
such as Health Information Exchanges, Accountable Care 
Organizations, population health, telehealth, network medical 
devices, cloud services, big data, et cetera, also introduce 
greater challenges in securing information because it seeks to 
share it more broadly than ever before.
    Add to this the sheer number of individuals accessing and 
handling health information, and it is easy to see that a CISO, 
let alone one in an organization as complex as HHS, has a full-
time job attempting to stay abreast of the many cyber 
challenges that leadership needs to be aware of.
    Security is best achieved as a top-down priority with 
strong visible leadership, disciplined practices, and constant 
reevaluation. What most healthcare organizations suffer from 
today in this area is lack of leadership. This resolution seeks 
to address the situation by creating a cybersecurity leadership 
post within HHS by elevating the CISO.
    Security programs are most successful when they are 
articulated from the top as an organizational or core mission 
priority, when there is visibility to the program, when risk is 
openly communicated and debated, and when every member of the 
organization intuitively understands that security is a part of 
his or her role.
    In the Department of Defense, where I had the honor to 
serve for more than 20 years, security is second nature and 
understood from one of the most junior service member or civil 
servant to the generals and senior executives who lead our 
military services and agencies. In each service and agency 
there is a senior security official who is a full member of the 
executive staff with responsibility for ensuring the protection 
of organizational personnel, assets, information, and 
operations. That individual, like his or her counterparts, has 
a responsibility to the director or service chief of staff and 
to the broader protection of our national security.
    From my earliest assignment as a Marine Battalion S-2 and 
Information Security Officer to my position as the Chief of 
Security for both OSIA and DTRA, I understood and had 
responsibility to ensure the protection of information assets, 
to constantly assess the risk and advise leadership on the 
right course of action to mitigate the threat. At both OSIA and 
DTRA, we had formal accreditation standards for information 
systems and sensitive information.
    The CIO was primarily responsible for procuring, 
developing, implementing, and managing information networks and 
systems in support of the agency's mission. My responsibility 
was to test, accredit, and monitor those information networks 
and systems to ensure they adequately protected the sensitive 
information they processed, stored, or transmitted. Both the 
CIO and I were peers, and we worked collaboratively to meet the 
agency's mission as well as the mandates from national 
security. The Director communicated that information security 
was a priority, and for every member of the agency, we had 
well-defined policies, procedures, and processes that both 
governed and guided our decisions and actions. When new systems 
and services were contemplated or introduced, it was necessary 
for security to accredit those before they could be made 
operational.
    This leveling of the playing field between the CIO and 
myself resulted in a very collaborative environment, because 
neither one of us wanted to see something held up unnecessarily 
and both of us had a vested interest in deploying secure 
systems. So, early on in projects, our teams collaborated. This 
effectively streamlined review and testing times down the line 
and identified issues early, so that they could be resolved 
before they impacted accreditation.
    When I had a concern, I could address it to senior staff 
and the Director. Likewise, my counterpart, the CIO, could also 
make his argument when he felt security was too restrictive or 
impacting productivity. Leadership then had the ability to make 
informed decisions based on the merits of both of our 
arguments.
    Mr. Pitts. Could you wrap it up?
    Mr. McMillan. In conclusion, sir, I believe that this is a 
very necessary act for HHS to take.
    [The prepared statement of Mr. McMillan follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Pitts. The Chair thanks the gentleman, and thanks to 
each of the witnesses for your testimony.
    I will begin the questioning and recognize myself for 5 
minutes for that purpose.
    We will start with you, Mr. McMillan. One of the concerns 
we have heard with this proposal is that, because the roles of 
CIOs and CISOs are well-established throughout the Federal 
Government and many Federal Government mechanisms rely on those 
roles being the same across departments, that any change at HHS 
will disrupt HHS' ability to coordinate cybersecurity 
activities with the rest of the Government.
    How did you coordinate with other Federal departments and 
agencies when you were Director of Security with the Defense 
Threat Reduction Agency?
    Mr. McMillan. Thank you, sir.
    We actually had a very formal process for doing that. The 
accreditation process for all of our systems within the 
Department of Defense depended on everybody in the Department 
following that accreditation process. So, all of the Directors 
of Security across the defense agencies and across the military 
services were essentially all marching to the same drum, if you 
will, in terms of how we managed our environments and how we 
accredited our systems.
    We did that so that we could create a trusted environment 
between all of us to facilitate the sharing of information. We 
did that, also, with other departments and other agencies 
throughout the Government in order to share information there, 
because, as you know, the military services and DoD share 
information with the intelligence community, with Justice, and 
many other departments, as we work in interagency operations. 
So, we had to have a structure. So, that structure actually 
facilitated the ability for that communication to happen in a 
very effective way, in a very smooth way.
    Mr. Pitts. Did the fact that you were ultimately 
responsible for cybersecurity and not your CIO counterpart 
impact the ability for you or the CIO to participate in 
intergovernmental forums and working groups focused on 
cybersecurity?
    Mr. McMillan. Not at all. In fact, if I may, I would say 
that we actually shared that responsibility. I had 
responsibility for implementing the information security 
program or the computer security programs, but the CIO and I 
together shared responsibility for implementing the 
cybersecurity program or secure systems. And he had his 
committees and working groups, and whatnot, that he worked in; 
I had ones that I worked in. But, ultimately, we worked 
together very collaboratively up and down the line.
    Mr. Pitts. Do you have any suggestions for how HHS might 
harmonize this reorganization with their participation 
responsibilities in Federal initiatives, in forums, or programs 
focused on cybersecurity, where the CIO is usually the agency's 
representative?
    Mr. McMillan. Unfortunately, I am not completely familiar 
with how they are organized today within the Federal Government 
in terms of how that all occurs. But I would say that the CISO 
in this arena should interact with their counterparts across 
the Government.
    We had interagency committees on information security, on 
computer security that all of the Directors of Security 
participated in. And even for those agencies where there wasn't 
a Senior Director of Security who had responsibility like some 
of us did, those individuals still participated in those forums 
at that time. I am assuming they still do. I would just suggest 
that in this arena that what we are really talking about is 
leveling the playing field within HHS itself in terms of how it 
makes decisions.
    Mr. Pitts. Mr. Corman, do you have any thoughts or 
suggestions in this regard?
    Mr. Corman. The relationship has to be incredibly strong 
between the CISO and the CIO. It is just one of many 
stakeholders that has to have a strong relationship. So, the 
communication cannot be replaced. It is more a matter of when a 
conflict arises--and I have outlined several in my written 
testimony--they can now have an equal footing to resolve those. 
So, it is not about eliminating communication or siloing 
information. A CISO cannot succeed without successfully working 
with its executive stakeholders, and the CIO being a key one. 
So, I don't think this should be looked at as a siloing effort; 
more of a balancing of raising visibility and tension decision 
to a higher level.
    Mr. Pitts. Ms. Burch, do you have any thoughts or 
suggestions?
    Ms. Burch. I would agree with what has been said by the 
other panelists. I think this move of elevating the CISO, what 
it really does is it allows two complementary skill sets to 
come together. I think, as Mr. Probst mentioned, there is no 
necessarily one right way to do this, but ensuring that those 
direct channels to the executive leadership exist, to ensure 
that that risk management approach is there, and is factored 
into the decisions being made. I think we see them really as 
collaborative and the need for collaboration.
    Mr. Pitts. My time has expired. The Chair recognizes the 
ranking member, Mr. Green, 5 minutes for questions.
    Mr. Green. Thank you, Mr. Chairman.
    From what I understand, the bill before us today relates to 
another piece of legislation passed late last year, the 
Cybersecurity Information Sharing Act of 2015. Since it 
required the Secretary of the Department of Health and Human 
Services to take certain steps to address cybersecurity, Mr. 
Probst, can you describe for the committee some of the steps 
that the Department is currently taking as a result of this?
    Mr. Probst. Well, the fact that an individual is to be put 
in charge to look at the issue of cybersecurity, that it can be 
focused on someone to actually come up with a plan, CISA does a 
pretty good job of facilitating that effort, as well as the 
Task Force that supports some of the decisionmaking. So, I 
think it is incredibly important, CISA, that it is getting a 
good focus within Health and Human Services, as well as looking 
across the various areas of HHS and making sure there is strong 
coordination.
    And let me just emphasize that, as we have been talking 
about the role of the CISO and the CIO. You know, I think, 
well, coordination is the key and cooperation. And architecting 
how you are going to do security is probably the most important 
aspect, I think, of cybersecurity, not necessarily where an 
individual reports.
    I think if the strategy is, by raising a particular 
position, and that somehow is going to raise cybersecurity, I 
don't think that is the case. I think the case is, if it 
doesn't permeate the organization in all aspects--I mean, a 
CISO, it really depends on the role. Like I said, at 
Intermountain that is a technical role to work and implement a 
plan. Most of that plan gets developed by compliance people, by 
legal people, by internal audits, and it requires the 
cooperation of all these pieces.
    So, I am less about where that role resides, and I think 
there are good arguments for the CISO to report other than the 
CIO. But the fact that what the CISO does, it impacts 
everything within our environment. It impacts our networks, our 
servers, our physical security, everything within the purview 
of the CIO. I think it is very difficult to make those too much 
at a peer level because there is a lot of coordination that has 
to happen at the technical level.
    Mr. Green. How do you see the provisions in CISA working 
with the legislation we are considering in today's hearing?
    Mr. Probst. Well, again, it goes back down to the 
coordination. Now it is not due until the end of the year. So, 
HHS has a lot of time still to focus on it, and we will see 
what comes out of that, the efforts of CISA.
    But I would, again, go back to it is coordination and 
cooperation across the areas and really getting a focused plan 
for how cybersecurity is going to happen within HHS. Then, I 
think I would make the decisions where the specific roles 
report.
    Mr. Green. OK. Ms. Burch, in your testimony you note that 
``it is not simply the organizational change of the CISO which 
would dramatically improve the security posture of the 
organization. The right people, process, and technology must be 
in place.'' Can you elaborate on what you meant by that point?
    Ms. Burch. Sure. I think that point was meant to underscore 
the need for collaboration. So, it is not simply, again, 
changing the reporting structure and you automatically have a 
culture that elevates cybersecurity. It is about whether all 
the pieces are in place and whether decisions are being made 
across the organization to support security as a priority.
    Mr. Green. In the short time that we have had the current 
law in effect, do you see that happening at HHS? And this is 
for our other witnesses, too. The coordination, the right 
people, process, and technology in place?
    Ms. Burch. We believe that there is certainly room for 
improvement.
    Mr. Green. OK. Mr. Corman?
    Mr. Corman. At our public meeting last month for the HHS 
Task Force we had NIST come in and give a readout on the 
voluntary surveys they are doing. Again, it is adoption of the 
voluntary cybersecurity framework. And they did point out that, 
while the adoption is comparable in certain aspects of the 
cybersecurity framework, some of things like asset and 
inventory management were deficient, which is essentially a 
linchpin. If you don't know what you have and you don't know 
when it changes, it is difficult to do successful vulnerability 
management and good hygiene to avoid some of these attacks.
    And if you look at the broad swath of attacks, one of the 
most common elements is they are attacking known 
vulnerabilities that were avoidable and patchable with good 
hygiene. So, across the Government and the private sector there 
is certainly room for improvement. A hundred of the Fortune 100 
have had a breach of intellectual property/trade secrets. No 
one can be heralded as doing an excellent job, but I believe 
giving increased focus and priority to this may encourage them 
to meet and exceed best practices.
    Mr. Green. OK. Mr. Probst or Mr. McMillan, do you all have 
a comment on it, in my last second?
    Mr. McMillan. I do not, sir.
    Mr. Green. No? OK.
    Thank you, Mr. Chairman.
    Mr. Pitts. The Chair now recognizes the Vice Chairman of 
the subcommittee, Mr. Guthrie, 5 minutes for questions.
    Mr. Guthrie. Thank you, Mr. Chairman.
    And thanks to the panel for being here.
    My first question, actually, I would like all of you to 
address a little bit, but start with Ms. Burch. In your 
testimony you cited two statistics, and I think it is the heart 
of why we are here today. It is from the 
PricewaterhouseCoopers' study.
    One, you said that organizations that have the same 
reporting structure with the CIOs/CISO reporting structure as 
HHS has have 14 percent more downtime due to cybersecurity 
incidents and, also that they have 46 percent higher financial 
losses in organizations with the same reporting structure. 
Would you elaborate or tell us why you think that is?
    And, Mr. Corman, I think you cited the same statistics. So, 
I will let Ms. Burch and, then, Mr. Corman go second.
    Ms. Burch. Mr. Corman may be able to better answer that 
question.
    Mr. Guthrie. OK.
    Mr. Corman. This is one study; it is a popular study. There 
is a lot of anecdotal evidence of things like this. One of the 
reasons, for example, just to give you a concrete, is a CIO is 
often responsible for and measured by uptime and availability 
of services. And oftentimes, it is required and necessary for 
security teams to interrupt uptime to do security assessments 
or to do healthy security patching to maintain hygiene and 
reduce risks and exposure. So, that natural tension usually 
leads to the CIO winning. And if you put off the hygiene and 
the remediation to enclose exposures for a long enough time 
period, it can exacerbate the magnitude and the duration of a 
breach or an outage.
    Mr. Guthrie. OK. So, Mr. Probst and Mr. McMillan, would you 
like to address that? Why do you think this structure leads to 
higher downtime and higher financial losses?
    Mr. Probst. Again, I think it really comes down to how you 
define the roles of the CIO and the CISO and what their 
priorities are. As I mentioned in my testimony--and this is 
serious--when I talk to my team, I would rather lose all of our 
systems than have a serious breach. Now I don't know if that is 
common across every CIO in the industry and it may be unique to 
just Intermountain Healthcare and the focus our board and our 
leadership has put on it. But, because of that, I wouldn't have 
the tension that Mr. Corman mentioned about. We would do the 
things we need to do to do the best job we can to secure our 
systems.
     Again, the role of CIO in healthcare varies dramatically. 
If you are a small, 20-bed hospital in the middle of Indiana, 
you are the CIO, you are the CISO, and you are the guy that 
changes the ink in the printers because that is what you have 
to do because of the nature of our business.
    So, I think because the roles are so different based on the 
organizations, and even the emphasis they have placed on 
security, it is going to be different. I think it goes back to 
what Ms. Burch said. She talked about how you have to architect 
this, how it is a holistic approach, and if you have a plan, 
then you can put the pieces in place to make that plan work.
    So, thank you.
    Mr. Guthrie. Mr. McMillan?
    Mr. McMillan. I would like to answer that question with 
three things: one, some anecdotal information, and the second 
one, some of my own personal experience, and, then, why I think 
it is important.
    The first one on the anecdotal side is my company works for 
hundreds of hospitals across the Nation. And I can tell you 
that not every hospital shares Mr. Probst's philosophy on how 
to manage security. Marc has been one of the most outspoken 
proponents of security that I have worked with over the last 15 
years in the healthcare industry, and his organization is 
probably one of the best out there, bar none.
    But, unfortunately, that is not the norm. If you look at 
the breaches that we have had in recent time and you look at my 
testimony, I think I put one telling tale in there that goes to 
what was commented on earlier. That is, over 90 percent of the 
breaches that occurred last year occurred with a vulnerability 
that was more than a year old, and more than 50 percent of 
those occurred with a vulnerability that was 5 or 6 years old, 
meaning there was a fix; there was a patch that somebody could 
have applied. There was a configuration that somebody could 
have made. There was a port that somebody could have closed. 
There was a policy that somebody could have pushed out. And 
those things weren't done. Unfortunately, that gave the bad 
guys an opportunity to get a foothold and, then, do harm in our 
environments.
    So, I have seen organizations where they have put off what 
I call the blocking and tackling or the housecleaning, the 
hygiene, because they are too operationally focused on the 
number of projects they have. Some of our hospitals have 
literally hundreds of projects on their project board that 
their IT teams are trying to get done. And then, somebody says, 
``Oh, by the way, you also have to do this patching and fixing 
and hardening,'' and all these other things that take care of 
systems day-in and day-out.
    Unfortunately, what happens is the pressure is on them so 
intensely to roll systems out, to roll services out, to roll 
productivity out, that, unfortunately, it does create conflicts 
and they do make choices. Sometimes those choices are not the 
best ones from a security perspective.
    Mr. Guthrie. Thank you. I am about out of time. Actually, I 
have run out of time. So, I yield back.
    Thank you for the answer. I appreciate it.
    Mr. Pitts. The Chair thanks the gentleman.
    I now recognize the gentlelady from California, Ms. Matsui, 
5 minutes for questions.
    Ms. Matsui. Thank you, Mr. Chairman.
    Mr. Corman, I understand you are serving on the HHS 
Cybersecurity Task Force which was created by Congress in the 
Cybersecurity Information Sharing Act at the end of last year. 
Can you elaborate on the work that the Task Force is doing and 
what types of industry best practices you are reviewing?
    Mr. Corman. So, we are very early in the stages. We have 
had three meetings to date of the 12 that were prescribed. What 
we have been doing is inviting exemplars from adjacent agencies 
which may have instructive lessons for us. For example, we 
brought in the financial services ISAC and the Financial 
Services Sector Coordinating Council to explain, as they are 
the tip of the spear for innovating new ideas and more 
effective ideas that threaten information-sharing, risk 
reduction.
    One thing the FS-ISAC introduced that is very attractive, 
for example, is the idea of requiring a software bill of 
materials from their third-party IT providers through their 
contract language. What this allows them to do is understand 
the known vulnerabilities they are inheriting at procurement 
time to make more informed free market choices. And No. 2, it 
allows them to do an impact analysis of am I affected and where 
am I affected when there is a new attack like this ransomware 
with JBoss, for example.
    So, we are trying to bring them in. We have brought in the 
energy sector as well. While they are not as mature as the 
financial services sector, they do share similar consequences 
of failure to the medical field, where it could be measured in 
life and limb, where bits and bytes meet flesh and blood.
    And on the docket, we have more testimonies coming in from 
adjacent sectors. So, we are trying to grab the best from each, 
recognizing fully that medical and healthcare do have some 
unique challenges that won't be represented by others.
    Ms. Matsui. OK. Now you also in your testimony outlined six 
factors that contribute to the success of a cybersecurity 
program, including the reporting structure, which our bill 
would address. You also cite several metrics that demonstrate 
the improvements that organizations see when the CISO does not 
report to the CIO. Would you expect those factors and 
improvements to hold true across both the public and the 
private sector?
    Mr. Corman. Many of them do. This is a nascent field, and I 
encourage the parallel experimentation. So, for example, none 
of us expected it was a good idea for a CISO to report to a 
general counsel. It didn't make sense. It turns out it is one 
of the best reporting structures for protecting intellectual 
property and trade secrets and anything material to the 
business.
    So, it is through that experimentation and comparatives 
that people make these decisions. I have seen excellent 
relationships where the CISO does report to a CIO, much like 
Mr. Probst has indicated. It is just not universally the case. 
In general, depending on the most acute needs of the 
organization, you may orient differently.
    Ms. Matsui. Right. OK.
    Ms. Burch, in your testimony you quoted a study that found 
that reporting to the CEO or the board of directors rather than 
the CIO significantly reduces downtime and financial losses 
resulting from cybersecurity incidents. Can you talk a little 
bit about how that idea of reworking organizational structure 
would translate to an agency like HHS?
    Ms. Burch. Absolutely. I think, again, it gets to the 
prioritization of security concerns. Where does security exist 
in the culture of the organization? Is it a top-down or is it 
sort of bottom-up with a lot of roadblocks in between?
    So, I think it is very likely, and I think the hope would 
be, that that would translate. But, again, I think we need to 
see how a different reporting structure would play out. 
Obviously, Mr. McMillan has some experience with that to be 
able to say, you know, were there equal experiences and can 
they translate? We think that they can, and we think that, 
whether the reporting structure is to the general counsel or 
to, in this bill, the Assistant Secretary for Administration, 
that an alternate reporting structure that elevates security in 
the case of HHS would be positive.
    Ms. Matsui. Right, and I know that we are focusing on HHS 
here, trying to develop a model here, and knowing that each of 
the departments/agencies are not similar. However, having said 
that, I think that there is a lot of focus on this because I 
think we all believe, based on what has been happening, that 
health data is especially sensitive or vulnerable to attack.
    And if you think about HHS today, how would you suggest HHS 
build on the current efforts to take the lead on protecting our 
health data?
    Ms. Burch. From the HIMSS perspective, we think that the 
Cybersecurity Act of 2015 started us down that path. I think it 
forced HHS to elevate its role in working with the private 
sector. I think more and more it is not just internal to HHS, 
but it is how the information is flowing through the 
Department. It is coming in many forms. It is coming from many 
different places. As it comes and goes, there needs to be 
strong collaboration with the private sector as well. So, I 
think it is not possible to talk about this issue just in a 
silo.
    Ms. Matsui. Right.
    Yes? Quickly.
    Mr. Corman. I think that what is often lost is that it is 
not simply patient information. There are billions of dollars 
of intellectual property from the private sector contained 
within the remit of this agency. That is a very attractive 
target to nation-states or adversaries.
    Ms. Matsui. Right, and I see the small discussion we are 
having here is a very complicated thing moving forward. So, 
this is really the first step. So, thank you.
    And I yield back.
    Mr. Pitts. The Chair thanks the gentlelady, and now 
recognizes the gentleman from Illinois, Mr. Shimkus, 5 minutes 
for questions.
    Mr. Shimkus. Thank you, Mr. Chairman.
    My colleague Jan Schakowsky is over there. Tomorrow is her 
birthday. And even though she did not vote for my bill, I want 
to wish her a happy birthday.
    [Laughter.]
    One of the few in the whole country, but I didn't want to 
call you out.
    [Laughter.]
    Mr. Green. Mr. Chairman, you only had 12 votes against you, 
is that correct?
    Mr. Shimkus. I wasn't really counting.
    [Laughter.]
    So, welcome.
    And, Mr. McMillan, Brett Guthrie is also an Army guy; I am 
an Army guy. So, Marine intelligence is kind of an oxymoron, 
isn't it?
    [Laughter.]
    So, we are going to take your testimony with a grain of 
salt here.
    [Laughter.]
    No, it is great. This is great because this is really about 
organizational structure. As a military guy, someone has to be 
in charge. I mean, that is really the basic debate.
    And you can have good people come in, in Mr. Probst's 
testimony, but when I was watching you all in the testimony 
shaking your head or nodding yes, it is my view, watching the 
body language, that Mr. Probst's story is more unique than the 
norm. Is that true to the rest of the table?
    Mr. Corman, go ahead.
    Mr. Corman. As I said earlier, I have seen excellent 
relationships when the CISO does report to the CIO. It is the 
historical orientation. And when you have two excellent 
individuals who have excellent collaboration and they unify 
their goals and measurements, you can have success, but that is 
often in spite of the reporting structure, not because of it. 
And that is why I can acknowledge the truth of his experience 
and know that it may not be as universally repeatable.
    Mr. Shimkus. OK. In common language, you are saying that is 
unique, not the norm, from your observation? Go ahead, you can 
say it. It is all right.
    Mr. Corman. Yes. Yes, it can succeed; it can often fail----
    Mr. Shimkus. OK.
    Mr. Corman [continuing]. More often fail.
    Mr. Shimkus. Ms. Burch?
    Ms. Burch. I would agree. I think in what we have seen 
across the sector, it can certainly work, but, again, it is 
about the culture of the organization.
    Mr. Shimkus. Right, right.
    And, Mr. McMillan, obviously.
    Mr. McMillan. So, first of all, I would like to say that 
there are some excellent CIOs out there who do care very much 
about security and they do an excellent job in supporting their 
CISO and supporting the program and their organizations.
    The problem I have with leaving it up to personalities is 
that I don't trust personalities. I want structure, so that 
there are reporting responsibilities, so that there is, as you 
say, a responsible individual, regardless of what the 
personalities are involved, that says in the morning, ``It is 
my responsibility to secure this organization and this 
organization's assets, and it is my responsibility to raise the 
alarm when I see something that is risky,'' regardless of 
whether it is popular, regardless of whether it is going to get 
in the way of progress at the moment, regardless of what the 
issues are.
    Any good CISO, any good Director of Security understands 
that they don't drive the train; they are there to support. And 
they understand that they have a responsibility to raise the 
alarm with respect to risk and to identify what those risks are 
and to understand what they are in a balanced way with respect 
to what the organization is trying to accomplish. But you don't 
shy away from doing it. My concern is that, when you leave it 
to personalities, that may not happen.
    Mr. Shimkus. And that is your experience, I mean when you 
did the DoD stuff?
    Mr. McMillan. It has been my experience working with 
organizations in healthcare. It has been my experience in the 
Government as a Director of Security.
    Mr. Shimkus. And I think we are talking on the same issue, 
and I am going to stop real quick. But just my point of 
contention will be the same. You have to have someone in 
charge, and people are going to be moving in and out, 
especially at the Federal agency in this line of work. And one 
good working relationship, one movement could just change that.
    Anybody else want to add anything? Go ahead, Mr. Probst. We 
were picking on you.
    Mr. Probst. Well, yes, thanks for picking on me. It is good 
to be unique, I think.
    I would say, on a bed basis across the country, if you 
talked to the CIOs that manage the largest numbers of beds 
across the country, you are going to see their structure very 
similar to the structure that Intermountain Healthcare has, 
where the CISO is reporting up to the CIO. Now that can be 
changing, and I am sure of that, but, again, you are talking 
about more sophisticated organizations. And it has worked 
incredibly well.
    And I go back to what you said, sir, which is, who is 
accountable? And we make really important decisions. I have 
told you what I feel about the security of the data and the 
systems, but our systems also save lives on a daily basis. We 
have to make decisions that are critical. We may have someone 
sitting on a table where now the technology is providing----
    Mr. Shimkus. Yes, my time is almost done, and I appreciate 
that. The hostage-taking that has occurred on major hospital 
systems and when people have to go to paperwork transactions, 
it just really risks people's lives, and we have got to get on 
top of this. I think that is the same thing with Federal 
agencies.
    I thank you for your testimony.
    I yield back, Chairman.
    Mr. Pitts. And the gentleman yields back.
    At this time, we will go to the president of the John 
Shimkus Fan Club and the birthday girl, Ms. Schakowsky.
    [Laughter.]
    Ms. Schakowsky. I thank you for pointing out my aging.
    [Laughter.]
    No, thank you very much.
    I wanted to ask Marc Probst a question, but I wanted to 
start first by just thanking all of you for joining us today on 
this very, very important issue.
    I mean, how common data breaches are is just incredible. 
There have been more than 112 million healthcare records that 
were breached last year. It sounds like just about everyone. I 
understand that these records are rich with personal 
information, which usually includes a patient's Social Security 
number, which is used as an identifier with a bevy of other 
personal information, as the patient moves through the 
treatment continuum. Access to such information, then, enables 
all those bad actors out there to execute identity theft and 
fraud, which we have had hearings on that, too, as a growing 
problem.
    So, Mr. Probst, I know you talked about it, but if you 
could just summarize, what can we do to make electronic 
healthcare records less of a target for hackers?
    Mr. Probst. Well, I don't know about making them less of a 
target. I mean, one thing we could do is look at how the data 
is being used within those records and try to stop any abuse 
that might be coming.
    Now, if they are going out and getting a new credit card, 
that is going to be hard because we are going to have that kind 
of information. There is just no way we are not going to have 
it.
    But I think one thing we could do and should do, and I 
think we are beginning to focus on, is getting to a better 
identification system, so that we can have a national patient 
ID that actually is consistent across the industry. That really 
helps us to not have to carry a lot of data that we otherwise 
have to have to identify a patient in any kind of situation, 
whether it is in a hospital or a clinic or elsewhere. So, I do 
think there are things we can do like those types of standards 
that will help us to protect the data.
    Ms. Schakowsky. Would this be instead of--give us an 
opportunity to remove, for example, Social Security numbers and 
substitute something else? Is that what you are saying?
    Mr. Probst. I am saying that, yes, if we didn't want to 
have the Social Security number out there--we use that as an 
identification tool, as we use address, as we use age, as we 
use all these different data items. If we could come with a 
very unique way of identifying the patient, there are certain 
pieces of data that we wouldn't need that, clearly, the bad 
guys are looking for.
    Ms. Schakowsky. And what do you think that Congress can do 
to aid healthcare organizations, especially small and rural 
providers, for them to be able to better protect their patient 
data?
    Mr. Probst. Well, again, going back to some standards on 
how we are going to--even things like HIE, and Mac brought that 
up earlier, Health Information Exchange, we don't have good 
standards right now to do that. And so, you have all different 
kinds of technology out there trying to do things within 
healthcare to make it better.
    If we could get better standards on how we interchange 
data, on how we store data, what the data looks like, like I 
said, identifiers, that is going to help everyone because, if 
we can figure it out in a large organization, we can then share 
those capabilities with smaller organizations. But, right now, 
they are kind of on their own.
    Ms. Schakowsky. Let me just ask everyone, is there any hope 
that we could establish a zero-tolerance standard, given it 
seems like we make a change and, then, the hackers improve on 
it?
    Yes, Mr. McMillan?
    Mr. McMillan. Yes, ma'am. That would be, in my opinion, a 
very unwise thing for anybody to try to do in the security 
realm. Security is such a dynamic phenomena in that everything 
about security as it relates to systems is changing as we sit, 
as we sit here talking. I mean, the environment changes; the 
threat changes; the systems change; operations change; the 
network changes. The number of changes that an organization has 
to manage that can affect the security or the risk of a system 
is incredible, and it is constantly changing. There are things 
that we don't know yet.
    For instance, right now, this whole focus on ransomware, in 
my opinion, is focused on the wrong thing. Ransomware is not 
what we should be focusing on. That is just one form of malware 
that is affecting systems. There are hundreds of forms of 
malware that affect systems.
    What we ought to be focusing on is the impact of that 
particular malware or malware in general, which means we should 
be focusing on things that take systems down and make them 
unavailable to health systems to serve patients. If we want to 
make a change, increase the penalties that people stand to face 
if you do something that interferes or disrupts a hospital's 
ability to deliver care, regardless of the way you do it, 
whether you drive a truck through the door into the data center 
or whether you send some sophisticated ransomware in there. At 
the end of the day what is important is that the data is not 
available to take care of the patient, not how it happened.
    Ms. Schakowsky. Thank you. Thank you very much. I yield 
back.
    Mr. Pitts. The gentlelady yields back.
    At this time, we recognize the gentleman from New Jersey 
for 5 minutes, Mr. Lance.
    Mr. Lance. Thank you, Mr. Chairman.
    Good morning to the panel.
    Mr. Corman, in your testimony you spoke briefly about some 
of the reasons that the current CIO/CISO reporting structure at 
HHS might create conflicts of interest. Could you provide us 
with some examples from your professional experience in this 
regard?
    Mr. Corman. I did put a few in the written testimony. But, 
verbally, often there is a project to roll out a new service, 
and the time to do so involves software development, 
procurement, a number of things. In that long relay race, one 
of the stages needs to be security. That is usually the one cut 
to make sure that you deliver on time and on budget. So, you 
can often have a CIO deploy the service before it is seaworthy, 
before it has been properly assessed, before the 
vulnerabilities have been enumerated. So, that is one of the 
areas where it is a conflict of interest to try to tack it onto 
the end and usually run out of time and budget.
    Another one is a zero-sum budget where you can either buy a 
new server or a new security appliance. If the CIO is more 
measured on supporting business intent as opposed to being 
compliant or reducing risk, they tend to buy the things that 
are more familiar to their schooling, their experience, et 
cetera. And these don't always have to occur, but there will be 
natural tensions like that.
    Mr. Lance. And how do you think we should address this 
issue, working with experts like yourself?
    Mr. Corman. Well, it is a tough problem. That is why we 
have the Task Force. And we are quite overwhelmed by it, 
especially because they environments are target-rich but 
resource-poor.
    Mr. Lance. That is an interesting way to sum it up, target-
rich but resource-poor. I think that is critical to an 
understanding of this.
    Mr. Corman. Yes. I think one of the things that we did not 
say yet, but is worth noting, is when a security person is 
inheriting IT choices made without them, there is only so much 
they can do to secure them. If you flip the relationship and 
they are more peers, a security person can help make the more 
defensible and securable IT choices. So, there are certain 
things you could buy in your life that are harder to maintain, 
for example. One of the benefits of having these relationships 
be peers is they both have criteria for which cloud service to 
choose, which servers, which laptops. And if it has more 
informed criteria out front, the total cost of ownership later 
from a security perspective goes way down.
    Mr. Lance. Is there anyone else on the panel who would like 
to comment? Perhaps Mr. McMillan?
    Mr. McMillan. Yes, sir, and I think I alluded to this in my 
testimony. When there is a balance between those two roles and 
the security person owns the process for evaluating the 
technology before it is deployed or as it is being deployed or 
as it is being developed, what you end up with is the shortcuts 
that were just alluded to don't happen because, when I see that 
shortcut not happening, I say, wait a minute, we have to do the 
testing; it is time for testing, or it is time for doing 
whatever.
    When the IT organization owns the process from soup to nuts 
and security only comes in at the end, there is opportunity for 
things to get missed as it relates to staying on track or on 
schedule. Now, again, that doesn't mean that everybody is 
skipping steps or everybody is not doing things, but there have 
been instances where we have deployed systems or organizations 
have deployed systems, clearly, that everything wasn't taken 
into consideration that should have been. And primarily, it was 
because security wasn't addressed at the beginning of the 
project; it wasn't until the end.
    As the gentleman on the end said, once you select a product 
and you implement that product and deploy it, if things have 
been missed that are critical, it is very difficult to bring 
that back in.
    Mr. Lance. Ms. Burch or Mr. Probst?
    Mr. Probst. Well, I hate to keep coming back to roles. But, 
listen, if the CIO is cutting corners around security in 
healthcare, you have the wrong CIO. And I believe that is 
starting to be seen more and more within organizations in 
healthcare. It is relatively new. Six years ago, information 
security in Intermountain Healthcare was two people, and they 
mostly worried about passwords. It is now 50. So, it is 
different.
    Mr. Lance. And this, of course, is the wave of the future, 
and we all have to be concerned, so that security is protected.
    Mr. Chairman, I yield back half a minute. Thank you.
    Mr. Long [presiding]. The gentleman yields back.
    At this time, we will recognize the gentleman from New 
York, Mr. Engel, for 5 minutes.
    Mr. Engel. Thank you, Mr. Chairman. Thank you for convening 
today's hearing.
    Mr. McMillan, you mentioned in your testimony that 
healthcare has been characterized as being a soft target for 
cybercriminals, an idea that I think we can all agree is quite 
unsettling. Has healthcare always fallen into this category 
and, if not, how did it come to be a soft target?
    Mr. McMillan. So, I think, sir, that healthcare has always 
been in this category, and I think it is just of late, as the 
threat has focused more and more on healthcare, that it has 
become so apparent. I mean, if you look at the evolution of the 
incidents that we have had in healthcare, they closely track 
the evolution of how we have evolved in healthcare as well with 
respect to our systems and our data.
    I mean, you can actually go back to before 2009, before 
meaningful use and before electronic health records and before 
we started digitizing most of our patient information, and you 
can see a marked difference between the kinds of issues that we 
had or incidents that we had back then and the types of 
incidents that we have had from 2009 on. Those incidents have 
done nothing but increase as time has gone by and as 
cybercriminals have figured out that, one, they can monetize 
this information and they can make a business out of it. That 
is really what it is.
    I mean, I saw a study just this past week that said we are 
looking at $6 billion in revenue in cybercrime this year. That 
is not crime anymore; that is an industry. And that is the way 
we need to look at it.
    You can go out there today and it is very simple for just 
about anybody to get involved in this industry. You go out 
there to the dark-net and buy services, buy techniques, buy 
tools, buy exploits, buy information, and it is all readily 
available. And that is why it is growing so exponentially.
     And healthcare, up until just recently, had not really 
been focused on security. As Marc said, a few years ago he had 
two folks in that department; today he has 50. An organization 
his size, I would never have imagined that they only had two 
people.
    But I can tell you, when I left the Government in 2000 and 
came out into the private sector and started working with 
healthcare, I was absolutely appalled at the state of security 
at most of the hospitals that I went into at that time.
    Mr. Engel. Yes, Mr. Corman, you wanted to comment on it?
    Mr. Corman. Yes. I sometimes think it is in terms of just 
normal police work. It is motive, means, and opportunity. And I 
think it is undeniable that, as we connect more medical 
technology and meaningful use--I posed a question to the Task 
Force. I said, ``Is meaningful use our original sin? Did we 
basically throw gasoline on the fire by essentially encouraging 
that we connect everything to everything else before we had 
done proper design and threat modeling, and whatnot?''
    Of course, there are benefits to that and, of course, we 
are about to do the same thing again with precision medicine 
and machine learning and big data. We have to understand the 
tradeoffs between those.
    So, I would say I just saw a chart yesterday from IBM, Pete 
Aller, showing that the top five data records stolen in the 
prior year didn't have healthcare on them, and last year, the 
most recent data had it No. 1.
    So, I think one of the reasons you have seen more records 
isn't that they weren't vulnerable before. It is that, as we 
have more opportunity and more connectivity and we now have the 
motive to go with it, this is going to accelerate, I believe.
    Mr. Engel. Thank you.
    Mr. Probst?
    Mr. Probst. Yes, I think one other issue to think about is 
in healthcare our systems weren't built to be protected. We 
weren't the NSA figuring out how are we going to build a system 
that no one else can externally get into. We built systems so 
that people could have immediate access across lots of 
different platforms and places, so they could save someone's 
life in the time that it was needed. And that is how our 
systems were built. And now, we are going back and saying we 
have to architect these a little bit different; we have to 
change them because we have a lot of important data to protect. 
I think we are soft for a number of reasons, but that would be 
one of them.
    Mr. Engel. Thank you.
    Ms. Burch, let me ask you a question. You noted that a 
significant security incident might not only endanger patient 
privacy, but could also disrupt patient care. Can you provide 
any examples in which a disruption like this took place? And I 
ask this because I would like to understand how severe this 
kind of disruption might be. Have treatment plans, for 
instance, been interrupted? What kinds of effects have these 
disruptions had on patient outcomes?
    Ms. Burch. In our experience in talking to our members, 
certainly, when you don't have access to information and you 
have a patient you need to treat, more and more as we are 
automated and that information is included in the electronic 
health record, you can't just pull a paper chart and, all of a 
sudden, you have got all the information there. So, I think the 
concern is whether it is an attack that prevents access to 
information, or whatever it might be, that there are real 
potential negative patient outcomes here.
    And that goes with the privacy side, that you have both 
internal and external risks that you are facing. Certainly, 
many privacy issues stem from security issues. So, was there an 
inappropriate disclosure by a staff member because access was 
granted when it shouldn't be, or something like that?
    So, I think it is possible that Mr. Probst might be able to 
provide experience that he has had personally. But I think, 
generally, that is what we have heard from our members in terms 
of, yes, I mean, they think about this in terms of potentially 
lives lost. It is that serious.
    Mr. Engel. Well, thank you. Thank you all very much. I very 
much appreciate your testimony.
    Thank you, Mr. Chairman.
    Mr. Long. The gentleman yields back.
    And at this time, I will recognize the gentleman from 
Virginia, Mr. Griffith, for 5 minutes.
    Mr. Griffith. Thank you very much. I want to make a couple 
of comments before I ask a couple of questions.
    First, this is one of those hearings that we won't see 
extensive coverage on CNN or the nightly news, but we 
appreciate your being here. One of the reasons that you won't 
see it is that it is a bipartisan bill trying to solve problems 
for Americans where nobody is shouting at anybody or making any 
accusations against the folks who are here, and both sides of 
the aisle are generally in agreement.
    Mr. Long, you and Ms. Matsui have come up with a good idea, 
and I commend you for that.
    Mr. Probst, I like the way you look at this. This bill, of 
course, deals with HHS that we are talking about today, but 
there has been a lot of discussion about what hospitals should 
be doing. One of my early concerns before you made your 
comments was, OK, wait a minute, one-size-fits-all from 
Washington doesn't usually work. You made that point very well 
in a larger system like your own, talking about separating the 
CIO and the CISO. You all have made a great case for that 
today. But, in the 20-bed hospital where the CIO is also 
changing, I think you said the photocopier toner or something 
along those lines, it doesn't necessarily make sense, although 
we have to be vigilant.
    Also, in your testimony, Mr. Probst, I notices that you 
touched on device manufacturers related to HIPAA. Because there 
will be some folks, probably insomniacs, who will watch this, 
could you explain that dilemma? I am very concerned about HIPAA 
issues, and I thought it was a very salient point that you 
made.
    Mr. Probst. Well, HIPAA gives us good guidelines on the 
privacy and security that we should apply to all of our 
information. Specific issues around medical devices, they don't 
have the same level of sophistication around cybersecurity, at 
least historically they haven't. And we have a lot of old 
medical devices. I think they are getting much more aware of it 
today.
    But today we have thousands of medical devices. They are 
all connected to our networks. They are essentially computers. 
They have personal health information on them, most of them, 
and they become a pretty interesting entry point for the bad 
actors to get into our networks. It doesn't take much of a 
crack in the hull for the water to start pouring in. So, that 
would be my major concern with medical devices, is just how we 
have been able to treat them.
    Because they are regulated by the FDA, most of them, I 
assume all of them--I don't know--but because they are 
regulated, many of their operating systems are decades old. So, 
we don't have all the patches that Mr. McMillan talked about 
that we can apply to it to get the security at a level that we 
want. So, medical devices I think are something we are paying 
attention to as an industry, but we are going to have to pay a 
lot more attention to.
    Mr. Griffith. And when you talk about they are regulated by 
the FDA and, therefore, some of them have operating systems 
that are decades old, that is because if there is any change, 
it has to go back through the process----
    Mr. Probst. Exactly right.
    Mr. Griffith [continuing]. To be reapproved by the FDA? So, 
what you are suggesting is that, maybe in the same bipartisan 
spirit that this bill was put together, some of us might want 
to be looking at a way that we could change at least for the 
security side, say that if you do a patch on security issues, 
it does not have to go through that FDA process? I know you 
haven't had time to think about it, and maybe you want to 
answer that question later.
    Mr. Probst. Yes, maybe----
    Mr. Griffith. That is a reasonable conclusion, is it not? 
Maybe put it that way. Would that be a reasonable conclusion 
for someone like myself to make?
    Mr. Probst. I think that is a reasonable conclusion, that 
it should be looked at. I don't know the exact answer----
    Mr. Griffith. Sure.
    Mr. Probst [continuing]. For the FDA, but it definitely 
needs to be looked at.
    Mr. Griffith. And I appreciate that, and that is why I love 
coming to these hearings and listening, because there are often 
things that you learn that you never thought you would. And 
that sounds like a good suggestion.
    I do appreciate it very much, all of you being here. You 
have really opened a lot of our eyes and convinced me this is 
(a) a good bill and that, in fairness, every healthcare 
provider in the Nation ought to be reexamining what they are 
doing and see what fits for them to try to give us some more 
security in these areas.
    With that, Mr. Chairman, I yield back.
    Mr. Long. The gentleman yields back.
    And I believe Mr. Corman wanted to add something.
    Mr. Corman. On that point, the I Am The Cavalry group, 
founded by volunteers, we are specifically focused on 
cybersafety for connected medical devices. And many of them are 
very hackable. There was a recent DHS ICS-CERT announcement on 
a single device that had over 1400 known vulnerabilities in it.
    But, to clarify, we have been working with the FDA, the 
Food and Drug Administration, on their guidance for connected 
cybersafety in medical devices. Their pre-market guidance has 
clarified that you can, in fact, patch without going through 
recertification. There has been poor education awareness that 
that has been clarified, and some vendors claim that it can't 
patch, even though it has been clarified repeatedly that they 
can.
    And, No. 2, this January the post-market guidance for 
ongoing care, feeding, and hygiene for those devices has also 
been published, and the 90-day comment period is closed.
    So, the FDA is taking actions to modernize the very things 
you are concerned about. I think there is a long way to go, but 
they are on the right journey.
    Mr. Griffith. Thank you.
    I yield back again.
    Mr. Long. Thank you.
    And at this time, I will recognize myself for 5 minutes.
    Ms. Burch, in your testimony you talked about the evolving 
role of the Chief Information Security Officer and how 
information security has evolved into a risk management 
activity. I think most of us hear this job title and think 
about firewalls, antivirus, not risk management. Can you 
elaborate a little bit on what you mean by that?
    Ms. Burch. Sure. So, we think it is important in this role 
to be looking at the business risk that is faced by the 
organization. So, we don't like to think of healthcare as 
businesses, hospitals as businesses, but, you know, in 
functioning in that way, they have to keep their doors open and 
they have to treat patients, and they have certain business 
missions that they are trying to work through.
    So, for us, we think that it is really important to look at 
the range of risk and the way that the CISO looks at the range 
of risk in terms of working with the various other executives, 
whether it be the general counsel on legal and compliance 
risks, or whatever it happens to be. So, it is looking sort of 
across the entire organization at why are we securing our 
information and assets. What are we trying to prevent from 
happening? First of all, being harm to patients, but there are 
certainly other risk involved.
    Mr. Long. OK. Thank you.
    And you go on to state that, because the Chief Information 
Security Officer is now a risk management position, that it 
should be moved out of its traditional subordination to IT. Can 
you connect the dots for us? Does the fact information security 
is currently subordinated to IT mean that the risks aren't 
always appropriately communicated to officials higher in the 
organization?
    Ms. Burch. That is what we have heard from our members in 
certain situations. Again, every situation is unique and, as we 
said from the beginning, it gets back to the organizational 
culture. But we have certainly heard of instances where 
operations has been prioritized over security.
    One example that we have heard is you have a device, let's 
say a bedside monitor that works really well in its base 
function. You know, the medical staff is happy with it. 
However, said device happens, also, to be operating on Windows 
XP, which is obviously no longer supported. Therefore, it is 
very vulnerable to attack that could result in substantial harm 
to a patient.
    So, I think that is sort of an example why we need to level 
the playing field at least in terms of elevating security 
within organizations.
    Mr. Long. Mr. Corman, you had something?
    Mr. Corman. Yes. One change in IT in business models, even 
in the Federal Government, is the increased use of third 
parties and supply chain partners and third-party services. And 
the CIOs, traditionally, while they can inform and create 
criteria for the selection of those third-party services, they 
have less operational visibility and control over them. So, it 
has been increasingly important for the CISO to provide upfront 
guidance and ongoing audit against those third-party risks as 
we become more dependent on third-party technology.
    Mr. Long. I have a sign in my office that says, ``Bring 
back common sense.'' And it is the most commented sign or 
anything in my office. People always say, ``That is exactly 
what we need to do.''
    And I know that Mr. Probst, as the CIO of his organization, 
is very much in tune with the CISO and gives that person 
everything they need. But, for any of the panel, in my last 
minute here does anyone care to comment? Doesn't it make common 
sense that, if someone is charged with being a Chief 
Information Security Officer and they want to implement new 
systems, and then, the person above them has bigger fish to fry 
and doesn't care about that right now, doesn't that lead to the 
types of things we saw at HHS, Mr. McMillan?
    Mr. McMillan. Yes, sir, it certainly can. But I will have 
to go back to something that Marc said because I do absolutely 
agree with him that it is not just about the position; it is 
also about the processes and the structure within the 
organization as a whole, and how the leadership of the 
organization views security as well.
    The reason Marc is able to do a lot of the things he does 
and the support that he gives his CISO is because he also has 
the support of the rest of the executive team for his model. 
There are situations where that isn't necessarily the case.
    Again, it gets back to what I said earlier, and this gets 
back to your comment about common sense. Anytime we leave it up 
to people, people will disappoint us, and that is one thing 
that we have learned in security. They will make bad decisions. 
They will make good decisions for the wrong reasons. I mean, 
there are all kinds of things that can happen.
    What I have come to understand over the years in doing this 
is that, when there is a separation of duties and there is a 
clear delineation of responsibilities, and both parties are 
doing what they are supposed to be doing and communicating 
openly, and the leadership has the ability to hear both those 
arguments, they make much better decisions.
    Mr. Long. Mr. Probst?
    Mr. Probst. Yes, I mean, if the CIO at HHS' job is to be 
the tech guy, to go install systems and monitor networks, and 
those types of things, and it isn't around highest security, 
then, by all means, the CISO should report somewhere else. If 
the CIO's job is to protect the data and to do all those other 
things that I mentioned, then, potentially, maybe the CISO 
should report to the CIO. But it goes to what Mac just said: 
what are the accountabilities? What are the responsibilities 
you are putting on those roles? And then, see that they do it. 
But this is a major issue, you know, security.
    Mr. Long. But the person charged within it should be able 
to make the final decision, should they not if----
    Mr. Probst. They should.
    Mr. Long [continuing]. They implement a security system?
    Mr. Probst. They should.
    Mr. Long. OK. Thank you all for your time.
    And at this time, I am going to yield to the gentleman from 
New York, Mr. Collins, for 5 minutes.
    Mr. Collins. Thank you, Mr. Long.
    I want to follow on that with Mr. Probst and Mr. McMillan 
because I absolutely agree with the comments you just made. I 
spent my life as a CEO in the private sector; in fact, was CEO 
of the largest upstate county in New York.
    And at some point, a person has to call the shot because 
you are always going to have the potential--you are not going 
to have perfection. We are saying there will always be some 
differences between operational efficiencies and security, 
always. I can make it 100 percent secure and we do nothing or I 
can open it wide up and be as efficient as you could imagine 
and have a lot of backdoors.
    So, a person, an individual, a human being has to make a 
judgment call, correct?
    Mr. Probst. Yes.
    Mr. Collins. All right. So, what you have to have in an 
organization is a good, smart person with common sense to make 
that judgment call, understanding the potential consequences, 
which may be different with a medical health record than 
something else. I mean, they have got to make a judgment call. 
In hindsight, if something goes wrong, they are always going to 
be attacked on that judgment call.
    So, I guess I am somewhat ambivalent on this, only in 
thinking, when there is a disagreement on security and 
operations, it goes to someone else. Now, if it goes to the CEO 
in a small company, the third time those two people walk in his 
office will be the last time they walk in his office because he 
has got too much going on, and he is going to say, ``You know 
what, Joe? You are now in charge of both. Sam, you report to 
Joe. You have security and other operations. You figure it out. 
Your head is on the line. Get out of my office.'' That is how a 
small company would work.
    Now HHS is different. It is a huge organization. But, at 
some point, these two concerns come together and somebody has 
got to make the call.
    I think, Mr. Probst, as you pointed out, the right 
individual, given guidance by the person in charge and the 
board of directors, or whatever, could be the CIO, and 
everything would be fine. On the other hand, if the 
organization is inept, then it would never be fine.
    So, I am just sitting here--at some point, Congress has a 
role to play. At some point, you have got to hope the President 
appointed the right person to be the Secretary of HHS, who, in 
turn, appointed the right person here and here. And I just have 
to wonder sometimes, is it Congress' role to get into the 
operational structure of an administrative department or do we 
need to just trust that smart people are in Government? I mean, 
what would you say to that, Mr. Probst? Should Congress be 
micromanaging at a CIO/CISO level and writing job descriptions?
    Mr. Probst. Well, I don't believe they should personally, 
but that kind of just puts aside everything that we talked 
about today. I mean, the things have to happen, right? You have 
to have an architecture. You have to have an approach, and you 
have policies.
    Mr. Collins. Correct.
    Mr. Probst. If you do, you can have smart people.
    The one thing we didn't talk about while you were speaking, 
sir, was the presidential appointment of the CISO. That 
concerns me a little bit as well because now you are going to 
politicize a really important role. If you have smart people as 
the Secretary of HHS--by the way, I think we do, and there is 
some very good leadership there--they ought to be able to find 
the right person to do it.
    Mr. Collins. Oh, no question. No question.
    Mr. Probst. But that is part of this role.
    Mr. Collins. Yes, Mr. McMillan, do you have a comment, 
having come out of DoD?
    Mr. McMillan. I agree with that as well. I think, again, it 
gets back to having all the different components. And you are 
right, if you have the right structure, if you have the right 
expectations in terms of how we do things, then you are right, 
smart people can make good decisions and they will do 
responsible things.
    I think it is a combination of all those things. But, even 
so, my experience has been that there does need to be that open 
communication with respect to managing risk. And there have 
been countless situations where the IT organization, which 
ultimately at the end of the day is responsible for delivering 
services, has numerous pressures put on them to meet deadlines, 
et cetera, things like developing software where we have to hit 
a deadline to meet software. So, we get rid of the regression 
testing or we get rid of the security testing. The next thing 
you know, we have a piece of software out there that has got 
bloated code in it or it has got insecure code. But we hit our 
deadline, right? So, we didn't have any penalties.
    We can't let those things happen when we are talking about 
something as serious as this. When you are talking about 
things, to get back to medical devices, what we haven't talked 
about yet is why don't we have a solid standard for how a 
medical device has to be engineered and architected from the 
beginning. The FDA guidance is just that, guidance. The 
manufacturers don't have to listen to it.
    Mr. Collins. I think my time has expired. You know, I 
appreciate that, and I just would conclude by saying we all, I 
think, know a person is ultimately going to have to make the 
call on the balance. It is a human being. Sometimes they make a 
mistake. In hindsight, people would always say they made a 
mistake. And we just need to recognize, whatever we do here, we 
are not going to end up with perfection and it is going to be a 
human being making that call between efficiency and security.
    Thank you all very much. It has been very interesting.
    Mr. Long. Thank you, Chairman.
    Mr. Pitts [presiding]. The Chair thanks the gentleman and 
now recognizes the gentleman from Indiana, Dr. Bucshon, 5 
minutes for questions.
    Mr. Bucshon. Thank you, Mr. Chairman.
    I was a healthcare provider before I came to Congress. So, 
this is a pretty interesting issue. And I will probably 
diverge, go away from the pathway we have been on just a little 
bit to talk more about why are people going after healthcare 
information.
    To start, what data is the most important that people can 
get from an electronic medical record?
    Mr. Corman. Well, some of this is just the natural 
expansion of the dark markets and the criminal organizations. 
The street price of a credit card has plummeted due to a 
surplus from our rampant failures. It used to be over $100; now 
it is under $1 in certain circles. So, they have migrated to 
other forms of assets they can turn into currency.
    A difference between a credit card and some of the 
healthcare records is that I can get a new credit card; I can't 
get a new body.
    Mr. Bucshon. Right.
    Mr. Corman. So, it is the durability of the information.
    Mr. Bucshon. Say, for example, though, that you are a 
patient.
    Mr. Corman. Yes.
    Mr. Bucshon. OK? And you have a specific disease. Why is 
that marketable?
    Mr. Corman. It is not as much the disease. A lot of the 
information there can be used to perpetrate bank fraud, check 
fraud, account takeover.
    Mr. Bucshon. OK. So, it is not necessarily the health 
information. Like say you have heart disease, or whatever. It 
is everything that is in your record at the hospital, which 
includes your Social Security number or your other financial 
information, things like that?
    Mr. Corman. Yes. If it is someone famous or if it is 
someone important, that could be a high-value target.
    Mr. Bucshon. Right, right. I understand. Then, you could 
leverage----
    Mr. Corman. Yes.
    Mr. Bucshon. Say someone has a particular disease and they 
don't want the public to know, for example.
    Mr. Corman. Even employer discrimination. There is a bunch 
of markets for that.
    I just want to remind, part of the testimony is, you know, 
we have a joke that we say we love our privacy; we want to be 
alive to enjoy it. So, as we do tackle these, we want to make 
sure we are looking at the privacy and the safety of this.
    Mr. Bucshon. Anybody else have any brief comments on that 
one?
    Mr. McMillan. I agree with all of it. I would say the one 
exception to that that I worry about is, when you start looking 
at things like the OPM breach and the Anthem Blue Cross 
breaches, et cetera, where enormous amounts of medical 
information and background information on Government workers 
was exposed, there are national or state actors out there who 
absolutely would like to know if we have medical conditions 
that are sensitive to certain individuals in our Government and 
certain positions in our military, et cetera.
    So, there is time where medical information is valuable to 
certain other individuals, and it is not necessarily the 
cybercriminal who is looking to commit fraud or commit identity 
theft or those types of things. I don't think we can discount 
those things. They didn't steal 80 million records from Anthem 
Blue Cross for nothing. They didn't steal 23 million records 
from OPM for nothing. There was a purpose behind that. We 
probably don't know what the purpose is yet.
    Mr. Bucshon. Yes, I just wonder whether like, you know, I 
mean, people can find out that I have high blood pressure, 
which I do. Why do they care? Why would they care? Do you know 
what I am saying?
    So, that is the thing I was trying to get at. Is it the 
other information? In certain circumstances I understand that 
could be valuable information to people, right?
    It seems to me that the reason--and I think, Mr. McMillan, 
you pointed this out--that the focus is on now criminals going 
after health information, it is not the health information per 
se; it is the fact that now everything is being connected, and 
it is a portal through which they can get other information 
that in many other areas of our society, banking and other 
areas, those portals have been closed, effectively closed. They 
are never closed.
    And we haven't gotten ahead of it on the health IT side, 
Mr. Probst, as you pointed out. I mean, exactly, as a 
physician, you know, it always drove me crazy if it took me 
very much time to get into the health record or not. So, it is 
going to be a real easy--you know, I put in my password, and 
there it is, right? I can get into the entire system because 
that was the focus, right?
    So, I am just trying to get at, it is not necessarily that 
this is healthcare IT; it is a portal into people's financial 
lives and everything else. Is that true or not true?
    Mr. Probst. I think that is part of it. I mean, we are 
talking about people stealing data and using that data for 
inappropriate things. But the whole concept of cyberterrorism 
is very real. I mean, if you think about healthcare as an 
infrastructure piece of our country, I mean very key component 
of the infrastructure, cyberterrorism is very real and it 
probably scares me more than even some of the data that is 
being taken.
    Mr. Bucshon. OK. I have got one more question. So, briefly?
    Mr. Corman. Yes, real fast, on that point, none of us in 
the room are really that concerned about the ransom aspect of 
Hollywood Presbyterian. We were concerned of someone like 
Trick, a former Anonymous hacker who radicalized into an ISIS. 
Someone like that could do a sustained denial-of-service 
attack----
    Mr. Bucshon. OK.
    Mr. Corman [continuing]. In any crisis. It is not even the 
deaths per se; it is the crisis of confidence in the public to 
trust these----
    Mr. Bucshon. So, I guess the last question I have is, 
briefly, creating a separate healthcare ID for all of us based 
on either biometrics or based on a number or something versus 
our Social Security number, for example, would that improve the 
ability to protect non-medical information that is in our 
health records from cyberattack? Mr. McMillan?
    Mr. McMillan. No, sir. If that information is still in that 
record and I can misappropriate those records, then I can still 
use that information.
    I think what Marc was referring to--and I will let him 
answer that--but I think what he was referring to is that, if 
we have that unique identifier, then we could remove a lot of 
that personal information that today is in there just for the 
purpose of identifying the patient. So, think of it as----
    Mr. Bucshon. But that could be important.
    Mr. McMillan. Think of it as the ID cards that veterans now 
have, I, as a veteran, and other veterans have or as Medicare/
Medicaid now have. They have taken the Social Security number 
off of those cards.
    Mr. Bucshon. OK.
    Mr. McMillan. Right? Why have they done that? Because it 
put that number at risk.
    Mr. Bucshon. OK.
    Mr. McMillan. Why do we have it in the health record?
    Mr. Bucshon. I am over time. So, I will yield back, Mr. 
Chairman.
    Mr. Pitts. The Chair thanks the gentleman.
    I now recognize the gentlelady from Indiana, Ms. Brooks, 5 
minutes for questions.
    Mrs. Brooks. Thank you, Mr. Chairman.
    I would like to build on my colleague from Indiana's 
questions and allow each of you to answer and give your opinion 
with respect to his proposal or idea that, Mr. Probst, you 
talked about earlier, having a specific identifier for 
healthcare records. Specifically, if you could each comment on 
what your views are of the pros and cons of that?
    Mr. Probst. Well, I actually completely agree with what Mr. 
McMillan said. I mean, it is our opportunity to reduce the 
amount of data that we have that, then, could be used for 
nefarious purposes. So, by having that national patient ID, 
that is going to help there.
    From a clinical perspective, it is going to help massively 
because we want to be able to align our clinical data with the 
patients. And so, the national patient ID has huge benefit from 
a clinical perspective. But, from a security, I think Mac hit 
it perfectly.
    Mr. McMillan. So, the other benefit that a unique 
identifier for patients would provide is in the form of access 
control. As we expand our sharing of information into things 
like population health, where we are going to have disparate 
physicians and other individuals touching a record for 
different reasons at different times, the old role-based access 
control rules that we have followed in the past are not going 
to be adequate anymore. We are going to have to go to more 
attribute-based access-control-type principles.
    When we have everybody or everything uniquely identified in 
the system, whether it is an individual, whether it is the 
patient, whether it is the physician, whether it is 
environmental factors, et cetera, I can now create rules that 
actually facilitate access quicker for that gentleman to get 
into the record that he needs to get into and assure the 
patient that he is the right physician that is looking at that 
information.
    Mrs. Brooks. Thank you.
    Mr. McMillan. So, unique identifiers are beneficial.
    Mrs. Brooks. Thank you.
    Any further comments, Ms. Burch or Mr. Corman?
    Ms. Burch. Absolutely. The issue of patient matching and 
patient identification is something that HIMSS has been working 
on for a long time. We currently fund an innovator-in-residence 
at HHS in the Chief Technology Officer's Office to look at 
perfecting algorithms and other ways that you can identify 
patients and match patient information.
    From the HIMSS perspective, we absolutely think there needs 
to be a national strategy for patient data matching. We don't 
believe that a unique patient identifier is the panacea 
solution for that problem.
    Given the short amount of time, we can certainly share the 
research that we have done and the arguments that we have that 
may not support a unique patient identifier, but we do believe 
that there needs to be a serious look taken at what are new and 
emerging technologies around digital identity. What is right 
for healthcare?
    So, we have for a long time been a proponent of GAO or some 
other group really looking at this issue from the standpoint of 
what is the right solution of healthcare, and it may be multi-
solutions.
    Mrs. Brooks. Thank you. We would be interested in receiving 
that research and seeing what some of those ideas are.
    Mr. Corman, anything you would like to add?
    Mr. Corman. Yes. I would concur that it is not a panacea. 
As someone representing the security research community, often 
we place too many hopes in the efficacy of these things. I will 
say it is important as a principle to reduce your attack 
surface and reduce how many copies of these things you have and 
how they are come as you are, do as you please. You know, the 
less data you have, the less exposed you are. So, that is a 
good principle.
    But, typically, when you do something like this, you are 
just simply moving the focal point of the adversary. So, you 
would have to take a more strategic and holistic approach.
    I also know there are some privacy concerns around the 
downside or unintended consequences of such things.
    Mrs. Brooks. Thank you. I would be interested in knowing 
whether or not having what is proposed under this bill, 5068, 
would that help the Federal Government become more innovative 
with respect to security if we adopted this proposal for HHS to 
create this new office specifically? Do you think that would 
improve the innovation? I am all about innovation in 
Government, and I am curious whether or not this could actually 
help promote some more innovation in our systems.
    Mr. Corman. My immediate instinct is no. I think it is a 
very different role. It is going to be a more operational role 
for the agency as opposed to the genesis of new and holistic 
ideas for the industry.
    Mrs. Brooks. But, with respect to security--and maybe I 
should go to you, Ms. Burch. You were talking about innovation 
research and work that is being done with respect to security. 
Is that correct?
    Ms. Burch. Yes, I was speaking to the importance of the 
security aspect and being foundational to the innovation work 
that is happening. So, if you don't have a strong security 
architecture, patients won't trust sharing their information. 
You don't have the information to feed the research pipeline, 
and then, you ultimately don't get to cures.
    So, we think a CISO position within HHS that is empowered 
to work both internally and externally is critically important.
    Mrs. Brooks. Thank you, and I am sorry my time--I yield 
back my time. Thank you.
    Mr. Pitts. The Chair thanks the gentlelady.
    That concludes the questions of the Members present. We 
will have further questions, follow-up, and other Members will 
submit them to you in writing. We ask that you please respond 
promptly. And that means Members have 10 business days to 
submit questions for the record. So, they should submit their 
questions by the close of business on Thursday, June the 9th.
    We will also be consulting with HHS and work 
collaboratively and bipartisanly.
    And we thank you very much. This has been a very important 
and complex, really, issue that we must deal with. Thank you 
very much for your testimony.
    Without objection, this hearing is adjourned.
    [Whereupon, at 11:55 a.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]

                 Prepared statement of Hon. Fred Upton

    The House Energy and Commerce Committee knows, better than 
I think just about any committee on the Hill, how important 
cybersecurity is. We've examined issues surrounding encryption, 
considered how best to address data breaches, and evendug deep 
into the protocols that run our cell phones, studying the 
vulnerabilities. We understand that our digital infrastructure 
is under attack--every second of every day--from actors of all 
motivations and levels of sophistication.
    And that is why we are here today. Just like every other 
Federal department and private organization, HHS' networks and 
the information contained within them are under constant 
threat. At first glance, some may assume that we're holding 
today's hearing to chastise HHS for cybersecurity incidents 
that have happened in the past. We are not.
    We are holding this hearing because we are looking to the 
future. We are holding this hearing to examine whether or not 
HHS has the opportunity, by embracing the reforms suggested in 
Mr. Long's and Ms. Matsui's bipartisan bill, not only to 
improve its own internal cybersecurity, but to become a leader 
in cybersecurity within the Federal Government and in the 
health care industry.
    Consider this: the current structure for cybersecurity 
officials in place at HHS was originally mandated in 2003. The 
Internet looked radically different 13 years ago; smartphones 
were rare, cloud computing had yet to really take off, and the 
biggest threats to our digital infrastructure were viruses and 
worms, both of which could be stopped using standard firewalls 
and anti-virus software.
    But the cyberworld is constantly changing, and the threats 
that we faced 10 years ago are not the threats that we face 
today. Instead, we face a daunting array of cybersecurity 
threats, from sophisticated thefts of personal information held 
by health care providers, to the hostage-taking of hospital 
networks and equipment by ransomware.
    So I hope Members will take this opportunity to examine 
closely the issue before us, and give careful consideration as 
to whether or not an organizational structure established a 
decade ago is as agile, versatile, and powerful as we need it 
to be in order to combat the growing threats that we face.
    Our oversight identified a problem. And we have a 
thoughtful solution in the HHS SData Protection Act to address 
it.

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
